2008E001                      June 4, 2008




           Review of Matters Related
       to the August 28, 2005, Shooting
             of Reuters Journalists
IPO2008E001                                   




       Additional Information and Copies

The Department of Defense Office of the Deputy Inspector General for Policy and
Oversight, Assistant Inspector General for Investigative Policy and Oversight prepared
this report. If you have questions or would like to obtain additional copies of the final
report, contact Mr. Scott Russell at (703) 604-8718 (DSN 664-8718).

       Suggestions for Evaluations

To suggest ideas for or to request future evaluations, contact the Office of the Deputy
Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604­
8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704
IPO2008E001                            



                           LIST OF ACRONYMS

Acronym            Refers to:
 3 ID     3rd Infantry Division
 AP       Associated Press
 APTN     Associated Press Television Network
 AR       Army Regulation
 BFV      Bradley Fighting Vehicle
 BCT      Brigade Combat Team
 BG       Brigadier General
 CP       Checkpoint
 CJCSI    Chairman Joint Chiefs of Staff Instruction
 CJTF     Combined Joint Task Force
 DoD IG   Department of Defense Inspector General
 GCMCA    General Court-Martial Convening Authority
 HHC      Headquarters and Headquarters Company
 IO       Investigating Officer
 IPS      Iraqi Police Services
 JAG      Judge Advocate General
 MSR      Main Supply Route
 MG       Major General
 MNC-I    Multi National Corps – Iraq
 MNF-I    Multi National Forces – Iraq
 NGA      National Geospatial–Intelligence Agency
 NTC      National Training Center
 OP       Observation Post
 OPORD    Operation Order
 ROE      Rules of Engagement
 RPG      Rocket Propelled Grenade
 RUF      Rules for Use of Force
 SAW      Squad Automatic Weapon
 SJA      Staff Judge Advocate
 SROE     Standing Rules of Engagement
 TMC      Troop Medical Clinic
 TOC      Tactical Operations Center
 TOD      Tour of Duty
 TRAG     The Risk Advisory Group
 TSOP     Tactical Standing Operating Procedures
 TV       Television
 U.S.     United States
IPO2008E001   

                                      INSPECTOR GENERAL

                                    DEPARTMENT OF DEFENSE

                                     400 ARMY NAVY DRIVE

                                ARLINGTON, VIRGINIA 22202-4704


                                                                             JUN - 4 2008

MEMORANDUM FOR COMMANDER, UNITED STATES CENTRAL COMMAND
               CHIEF, NATIONAL GUARD BUREAU
               THE INSPECTOR GENERAL, DEPARTMENT OF THE ARMY
               ADJUTANT GENERAL OF THE STATE OF LOUISIANA

SUBJECT:	 Review of Matters Related to the August 28, 2005 Shooting of
          Reuters Journalists (Report No. 2008E001)

        This final repOlt is provided for your review and conm1ent. Management conunents on
the previous draft report were considered in completing this report, and are included in their
entirety as Appendix H. Please ensure we receive your conunents on this final report within
30 days from this memorandum date. Your comments should be submitted electronically to
scott.russell@dodig.mil.

        Conm1ents on tllls final report should conform to the requirements in DoD
Directive 7650.3. You should specifically indicate whether you concur, partially concur, or
nonconcur with each recommendation, if relevant to your operation. Conunents should describe
actions taken or planned in response to reconunendations with which you concur. They should
also include estimated completion dates for these actions. Conunents on reconm1endations
relevant to your operation, if any, with wlllch you do not fully concur, should include specific'
facts supporting the nonconCUlTence and propose an alternative.

         We appreciate the cOUltesies extended to the review staff. For additional information on
tllls report, please contact Mr. Scott Russell, (703) 604-8718; 664-8718 (DSN). You may also
contact Mr. Jolm Perryman, Director of Oversight, a 03) 604-8765'                   DSN).




                                        onald M. Horstman
                                    Deputy Inspector General
                                    for Policy and Oversight

Attaclm1ent
Final Report IP02008EOO 1
IPO2008E001   

IPO2008E001                                                       



                                           TABLE OF CONTENTS 

I. INTRODUCTION AND SUMMARY .....................................................................1 

II. THE SHOOTING INCIDENT.................................................................................2 

III. SCOPE ......................................................................................................................4 

IV. CONCLUSIONS........................................................................................................4 

V. RECOMMENDATIONS ..........................................................................................5 

VI. MANAGEMENT COMMENTS AND OUR EVALUATION ..............................5 

APPENDICES ....................................................................................................................9 

     Appendix A. Findings and Analysis .....................................................................11 

     1.	 Did responsible officials reach supportable conclusions based on relevant 

         evidence? ...........................................................................................................11 

         Standards .............................................................................................................11 

         Facts.....................................................................................................................12 

         Discussion............................................................................................................16 

     2.	 Did responsible officials comply with applicable standards for investigating 

         the death and injuries in this incident? ...........................................................20 

         Standards .............................................................................................................20 

         Facts.....................................................................................................................21 

         Discussion............................................................................................................27 

     3.	 Review of Rules of Engagement Training and AR 15-6 Investigation 

         Training ...........................................................................................................31 

         Standards .............................................................................................................32 

         Facts.....................................................................................................................32 

         Discussion............................................................................................................35 

     Appendix B. Chronology.......................................................................................37 

     Appendix C. Standards Related to the Rules of Engagement, Reuters Safety 

         Procedures, and AR 15-6 Investigations .........................................................43 

         1. 	 Rules of Engagement Standards....................................................................43 

         2. 	 Rules of Engagement Training Standards .....................................................47 

         3. 	 Reuters Journalist Safety Standards ..............................................................48 

         4. 	 Army Regulation 15-6 Investigation Standards ............................................50 

         5. Army Regulation 15-6 Investigation Training Standards .............................51 

     Appendix D. Overhead Image of Incident Site....................................................53 

     Appendix E. Photograph of Cameraman’s Equipment .....................................55 

     Appendix F. Washington Post and Other RPG Pictures ...................................57 

     Appendix G. Rules of Engagement Card 661 ......................................................61 

     Appendix H. Management Comments .................................................................63 

     Appendix I. Report Distribution .........................................................................71 

IPO2008E001   

IPO2008E001                                                                                                 1


                           REVIEW OF MATTERS RELATED 

                        TO THE AUGUST 28, 2005, SHOOTING OF

                              REUTERS JOURNALISTS 



I.       INTRODUCTION AND SUMMARY 


        We initiated this review to address a complaint by Reuters concerning the Army
investigation into the death of a Reuters journalist and injury of a second Reuters
journalist on August 28, 2005, in Baghdad, Iraq. Reuters complained that the Army
Regulation (AR) 15-6 “Procedures for Investigating Officers and Boards of Officers,”
investigation 1 improperly concluded the Army soldiers involved acted within the Rules
of Engagement (ROE). Reuters based its complaint on a private investigation contracted
with “The Risk Advisory Group” (TRAG) that concluded the soldiers did not comply
with the ROE and their use of force was “prima facie unlawful.” 2 Our review sought to
determine whether the Army properly investigated the incident and reached conclusions
supported by the evidence. Our review also examined whether systemic weaknesses 3 in
Army or Reuters policies and practices contributed to the incident. In completing our
review, we focused on these specific questions:

         o	 Did responsible officials reach supportable conclusions based on relevant
            evidence?

         o	 Did systemic weaknesses in either Army or Reuters policies or practices
            contribute to the death and injury of Reuters’ employees?

         o	 Did responsible officials comply with applicable standards for
            investigating the death and injuries in this incident?

         o	 Did systemic weaknesses in Army policy or practice result in an
            inadequate investigation?

        During our work we reviewed the facts and circumstances of the incident, and re-
interviewed the soldiers, the Reuters cameraman, the Investigating Officer (IO) and other
witnesses.

        We concluded that the AR 15-6 investigation, conducted by an officer in the same
brigade as the team that engaged the Reuters vehicle, was tainted by the failure to
preserve evidence and a lack of thoroughness (the failure to pursue logical investigative
leads).

        Notwithstanding, we found that although the IO who conducted the Army
investigation did not pursue some logical investigative actions, he properly concluded

1
     Hereinafter referred to interchangeably as “AR 15-6 investigation,” “15-6 investigation,” or “15-6”
2
     April 7, 2006, letter from Ms. Jamie Gorelick, Attorney at Law, Wilmer Cutler Pickering Hale and
     Dorr, LLP, 2445 M Street, NW, Washington, DC 20037-1487, representing Reuters.
3
     A systemic weakness is a fundamental problem that requires corrective action through administrative,
     regulatory, legislative, or policy change.
IPO2008E001                                                                               2

that during an ongoing enemy attack the soldiers thought a video camera and external
microphone held out of an indigenous, unmarked vehicle was a rocket propelled grenade
(RPG). The soldiers reasonably believed that act constituted a threat to United States
(U.S.) forces and as such were obligated to act and did so in accordance with the ROE.

        We found no systemic weaknesses related to either the Army unit’s training of
soldiers in applying the ROE or in training the IO to conduct AR 15-6 investigations (see
Appendix A, section 3).

        We determined that Reuters Baghdad bureau safety practices contributed in this
incident. In accordance with Reuters’ policy, the Bagdad bureau chief gave local
national Reuters journalists the discretion to work without protective equipment and in
unmarked, employee owned vehicles. Likewise, a Reuters security caution against
extending cameras out vehicle windows was not complied with. We understand Reuters’
concern for employee safety, and their employees’ desire to reduce their visibility or
profile in violent environments, but the actions of the Reuters journalists reduced the
soldiers’ ability to distinguish them from combatants during a battle.

        We recommend the Commander, 256th Brigade Combat Team (BCT) take
appropriate action with respect to the IO whom we identified as accountable for the
regulatory deficiencies described in this review. We also recommend the Commander,
256th BCT reinforce through additional training the importance of properly and
thoroughly investigating and documenting reports of noncombatant death and serious
injury. We recommend Multi National Forces - Iraq (MNF-I) Public Affairs Office
contact news media organizations in Iraq and offer to review their emergency response
procedures to enable employees to safely respond to encounters with Multi National
Forces when warning and disabling shots may be fired.

        This report sets forth our findings and conclusions based on a preponderance of
the evidence.

II.    THE SHOOTING INCIDENT

       On August 28, 2005, soldiers assigned to C Company, 1st Battalion, 156th Armor,
256th BCT, Louisiana Army National Guard shot and killed the driver and injured the
cameraman while they were filming an on-going insurgent ambush of Iraqi Police
Services (IPS) and U.S. forces personnel in Bagdad, Iraq, from an unmarked vehicle.

       Testimony and other evidence established that on August 28, 2005, Reuters
dispatched the driver and cameraman to the Hay Al-Adil District of Western Baghdad,
Iraq, where U.S. forces and Iraqi police battled insurgents who had just attacked an IPS
convoy. The employees traveled in an unmarked white four-door Daewoo Prince
automobile. One drove and the other, a cameraman, sat in the front passenger seat with a
video camera with a yellow conical microphone.
IPO2008E001                                                                                3

       As documented in the AR 15-6 investigation photographs, the camera was a
handheld Sony® digital camcorder, with a yellow sponge over the forward facing
external microphone strapped onto the camera handle directly above the lens. The
microphone extended beyond the end of the lens by about 5 inches. The word “Reuters”
was imprinted on the sides of the microphone (see Appendix E).

       Also, during the late morning of August 28, 2005, four soldiers, members of
C Company, 1st Battalion, 156th Armor, 256th BCT, on the roof of the Al-Adil Mall,4
Baghdad, Iraq, observed an ambush of an IPS convoy. The soldiers began to help the IPS
convoy with suppressive fire against the attackers and summoned help from 256th BCT
tanks and Bradley Fighting Vehicles (BFV) operating in the area. The ambush began to
subside and then resurged with the attackers using mortars against the IPS and 256th BCT
vehicles arriving to help. (See overhead image of the area with a legend at Appendix D.)

        Around the time of the resurgence, a soldier on the Mall roof observed a lone
white vehicle stopped on the roadway at the point where a roadway ramp closest to the
Mall merged into an adjacent, parallel road; the roadway where the ambush was ongoing
(see Appendix D). When observed, the vehicle faced north and was south of the 256th
BCT vehicles responding to the ambush. The soldier said he saw the passenger hanging
out the window pointing something that appeared to be an RPG; the soldier then yelled
an alarm, “RPG.”

       The soldiers’ team leader heard the alarm and observed the vehicle stopped
immediately west of them and facing north toward the 256th BCT vehicles and the
ambush area. He also saw the passenger hanging out the passenger window pointing
something toward the tanks. He could not positively identify the object and asked
another team member to bring binoculars.

        The team leader testified that by the time he got the binoculars, the passenger had
pulled himself and the object he pointed back inside the vehicle; the object was no longer
visible. The team leader said he shouted at the people in the vehicle to get them to stop
whatever they were doing and he and his team fired warning shots to get their attention.
He told us he fired the first shots expecting the vehicle to stay where it was, but it began
to back up (see Appendix D).

       At this point, the vehicle’s retreat was south in a northbound traffic lane. The
vehicle passed in front of the soldiers’ position, but on a parallel frontage road, and
continued to drive backwards away from the soldiers and the ambush (see Appendix D).

        They fired more warning shots and when the vehicle did not halt, the team leader
ordered disabling shots. Each of the four soldiers on the roof fired disabling shots. Three
of the soldiers used M-4 rifles. The fourth solider used an M-249 Squad Automatic
Weapon (SAW).



4
    Hereinafter referred to as the Mall.
IPO2008E001                                                                                 4

       The vehicle slowed and rolled to a stop against a roadway lane barrier (see point
2, Appendix D) south of the soldiers’ position. The team leader reported disabling the
vehicle, and one of the tank commanders, using the tank’s optical system, observed the
disabled vehicle’s driver apparently dead. The tank commander told the team leader to
continue surveillance of the vehicle and keep it in place until the tanks and other 256th
BCT vehicles finished searching for the people who initiated the ambush. The soldiers
remained on the observation post (OP) until the IO arrived at the scene.

        About 20 minutes later, the tanks and other 256th BCT vehicles arrived at the
disabled white vehicle. According to the cameraman, who had remained out of sight in
the front passenger seat, he sat up and called out “Reuters Cameraman” to the
approaching soldiers.

III.   SCOPE

        We interviewed 60 witnesses, including: numerous 256th BCT soldiers; the IO;
the appointing authority (BG John P. Basilica, Jr., Commander, 256th BCT); the 256th
BCT SJAs; the cameraman, and other witnesses. We also conducted 14 follow-up
interviews. In addition, we reviewed the AR 15-6 and TRAG reports and documents
associated therewith, both classified and unclassified ROE, as well as relevant e-mail
messages and internal documents within the chain of command and similar
communications within the Department of the Army and civilian agencies.

        We reviewed the policies and standards to determine whether responsible Army
officials complied and whether any systemic issues contributed to the incident. The
systemic review also considered Reuters guidance to employees in a hostile environment.

IV.    CONCLUSIONS

        The IO did not comply with some applicable standards for investigating incidents,
which rightfully caused or reinforced Reuters impression the investigation was pro forma
and less than independent (see Appendix A, section 2). However, a preponderance of
evidence establishes that the cameraman and driver took actions during the incident that
reasonably led U.S. soldiers to believe they were confronting hostile intent, which they
were obligated to address under the ROE. The soldiers’ escalating actions to warn and
then disable the vehicle were consistent with the ROE and implementation
standards/guidelines (see Appendix A, section 1).

        We did not identify any systematic weakness in Army training for AR 15-6
investigating officers, or for training 256th BCT soldiers to understand and apply the ROE
(see Appendix A, section 3).

       We found that the Reuters Baghdad bureau’s safety practices contributed to the
incident. The bureau chief authorized an exception to general safety procedures,
allowing local national journalists to enter hostile environments in private passenger
IPO2008E001                                                                               5

vehicles without press markings and without the occupants wearing safety equipment
(see Appendix A, section 1).

        Further, we identified a serious inconsistency between the Reuters Baghdad
bureau safety procedures and U.S. forces expectations, which also significantly
contributed to the incident (see Appendix A, section 1). The Reuters safety procedures
require employees to flee a scene if they come under fire. Under the ROE, however, U.S.
forces have escalating warnings that progress to disabling actions to force vehicles
occupants to stop doing what they are doing and stand fast. U.S. forces equate fleeing
attempts with insurgents combat tactics (drive into battle, fire a weapon, and flee quickly
to avoid return fire). Unless this inconsistency is resolved, or Reuters takes steps to
ensure that its employees use only vehicles with clearly visible PRESS markings, this
type of incident is likely to reoccur.

V.     RECOMMENDATIONS

        1. We recommend the Commander, 256th Brigade Combat Team take appropriate
corrective action regarding the investigating officer’s failure to preserve real evidence.

       2. We recommend the Commander, 256th Brigade Combat Team reinforce
through additional training the importance of properly and thoroughly investigating and
documenting reports of noncombatant death and serious injury.

       3. We recommend Multi National Forces - Iraq Public Affairs Office contact
news media organizations in Iraq and offer to review their emergency response
procedures to enable employees to safely respond to encounters with Multi National
Forces when warning and disabling shots may be fired.

VI.    MANAGEMENT COMMENTS AND OUR EVALUATION

       In response to the draft report, we received management comments from the
Army Inspector General (April 22, 2008), the Departments of the Army and Air Force
Joint Forces Headquarters – Louisiana, Louisiana National Guard (May 1, 2008), and
from the United States Central Command (USCENTCOM), which incorporated the
response from Multi-National Force -Iraq (May 13, 2008). The USCENTCOM
comments addressed Recommendation 3. USCENTCOM concurred with
Recommendation 3 and advised “. . . MNC-I PAO (Lead) and SJA (Support) will contact
Reuters Baghdad Bureau and make known their availability to review emergency
response procedures.” The USCENTCOM comments are responsive to the
recommendation; however, we subsequently expanded the recommendation to cover
news media organizations in Iraq.

        The Army Inspector General and the Louisiana National Guard both agreed with
our conclusion that U.S. forces’ actions in this case complied with requirements. They
also agreed with our recommendation concerning AR 15-6 training. However, they
disagreed with our findings and recommendation concerning deficiencies in the IO’s
investigation. According to the Army Inspector General, “. . . [a]lthough the IO gathered
IPO2008E001                                                                                      6

less evidence . . . he did ascertain the material facts, and his report was legally sufficient
when he submitted it. His report remains legally sufficient even when now compared to
DoDIG’s extensive investigation, which reached the same core findings as the IO’s
investigation. . . .”

       The Louisiana National Guard comments from the Commander, Operational
Headquarters Number 1 (U.S. ARNORTH) were more extensive. The Commander was
the 256th BCT Commander when the incident occurred. According to the Commander:
               . . . The IO performed his duties in a conscientious and professional
               manner, consistent with the combat conditions on the ground, his training,
               and his substantial experience. . . . I completely reject any suggestion that
               the IO’s conduct of the AR 15-6 investigation in this case was lacking. To
               apply rules of evidence as though they were required in a court of law,
               along with the benefit of complete 20/20 hindsight and after hundreds of
               hours of investigatory work by the DoDIG, is not fair or appropriate. The
               IO performed his duty to me, the Commander. He had no duty to satisfy the
               perceptions of third parties. . . . With regard to the handling of evidence, it
               is regrettable that the video tape was inadvertently lost. The circumstances
               were verifiably explained by all parties and I am satisfied there was no
               negligence on the part of the IO. More importantly, the Army Judge
               Advocates who reviewed the tape agreed that its contents were inconclusive
               and therefore irrelevant to the IO’s report and my subsequent finding.
               Accordingly, no remedial action against the IO is necessary or
               appropriate. . . .

       The full-text management comments are included as Appendix H.

        The Commander mentions combat conditions existing during the IO’s
investigation. We recognize that hazardous conditions during combat can necessitate
shortcuts in an investigation, even omitting specific investigative steps. However, no one
claimed and nothing in testimonies to us suggested that investigative deficiencies in this
case were due to hazardous combat conditions. On the contrary, the unit’s actions
following the incident refute this notion. In fact, the incident scene was
contained/secured throughout the IO’s time there and for several hours afterwards.

        We cannot accept the position that the IO’s investigation was sufficient because
the ultimate conclusion was correct. The AR 15-6 requires a thorough, documented
investigation. In this case, as detailed in the report:

       o	 The IO did not interview all personnel at the incident scene to identify
          potential witnesses. As a result, the IO was unaware of the third parties who
          would, based on real-time radio transmissions, confirm the shooting team
          members’ beliefs that they were dealing with a RPG. The IO also did not
          attempt to determine whether RPGs with yellow warheads existed. The IO
          simply accepted the shooting team’s testimonies at the scene without any
          reasonable attempt to verify the truthfulness or basis.

       o	 The IO did not personally obtain written statements from the shooting team
          members, or discuss their statements with them individually, which AR 15-6
IPO2008E001                                                                                  7

           required. As a result, the IO was unaware that distance discrepancies existed
           in the statements and did not attempt to resolve the discrepancies.

       o Although concluding the videotape was inconclusive, the IO did not document
         (1) the contents, (2) the videotape viewing, (3) the individuals present at the
         viewing, or (4) the viewers who considered the videotape inconclusive. In
         fact, the IO did not document the inconclusive decision, or even the existence
         of the videotape, and then was responsible for the loss.

         Although most key witness testimonies to us supported the shooting team, they
just as easily could have undermined the team’s statements. The IO did not know one
way or another because he did not identify or interview key witnesses.

        The IO also did not fully process the incident scene for physical evidence. The
scene was secured for about 6 hours. However, the IO was at the scene 30-40 minutes
and, while there, omitted typical investigative steps because he was familiar with the
area. Processing an incident scene requires more than familiarity with the area. Evidence
not collected, or not protected after collection, is evidence lost, as was true for the
videotape in this case. We have no way of knowing if other physical evidence was
available at the scene and was also lost due to non-identification/non-collection.

        The videotape loss may not have been due to negligence, but the evidence was
lost nevertheless. Furthermore, while the videotape may have been inconclusive, it
remained relevant to both the issues involved and the investigation. Otherwise, it would
not have been necessary for us to rely on the distant memories of the individuals who
viewed the videotape.

        It is a mistake to assume that the issues in this case resulted from third party
perceptions, or from applying rules of evidence as would be required in a court of law.
On the contrary, deficiencies in the IO’s investigation permitted Reuters and others to
raise valid questions about both the investigation thoroughness and results. These
questions could have been avoided had the IO complied with the AR 15-6 requirements.
Because he did not, an extensive reinvestigation was required substantially after the fact
to resolve those issues as much as possible without the benefit of all the evidence that
may have been available to the IO. As we pointed out in the report, our findings were
based on a preponderance of the evidence existing when we conducted the
reinvestigation. We cannot certify that our findings would have been the same had we
had access to all the evidence available during the IO’s investigation.

        As a final matter, following issuance of the draft report, a Reuters’ representative
provided information concerning the RPG picture that we included as Appendix F to the
report. According to the representative, the cone coloration in the Washington Post
Newspaper picture was due to the ink used in the newspaper printing process, since the
cone was actually light green in the original picture. During the reinvestigation, we
confirmed that RPGs with yellow warheads are manufactured and used in Iraq. In
response to the new information regarding the picture, we viewed various other RPG
pictures to see if they all appeared yellow due to printing. They depicted several different
colored warheads, including yellow, brown, gray, and green. The cone coloration in
IPO2008E001                                                                             8

some yellow warhead pictures appeared identical to the Appendix F picture. Since the
picture was for illustration purposes, the new information did not establish any need for
us to adjust the final report. Nevertheless, we expanded Appendix F to include additional
RPG pictures with different colored warheads, including one in which the cones are
clearly yellow.
IPO2008E001                                                9


APPENDICES

     Appendix A through Appendix I to the report follow.
IPO2008E001   10
IPO2008E001                                                                              11


Appendix A. Findings and Analysis

       1.	 Did responsible officials reach supportable conclusions based on relevant
           evidence?

        We concluded the IO did not consider all relevant evidence in conducting the AR
15-6 investigation (See Appendix A, section 2); however, we found the IO’s conclusion
that the soldiers acted in accordance with the ROE was correct.

        Additionally, we examined whether any systemic weaknesses in Reuters policy or
practice may have contributed to the death and injury of Reuters’ employees. We
concluded both Reuters Baghdad bureau safety practices and the actions of the driver and
cameraman contributed to this incident. We found a preponderance of evidence to
establish that, contrary to Reuters policy, the cameraman exposed his camera through his
open passenger window. The cameraman’s actions combined with the lack of vehicle
press markings and the soldiers’ heightened level of alert to hostile intent because of the
ongoing battle, contributed to the soldiers’ engagement of Reuters employees.

        In examining this issue we also considered whether systemic weaknesses in Army
policy or practice may have contributed to the death and injury of Reuters’ employees.
This amounted to a review of ROE training to prepare soldiers for duty in Iraq. We
determined that responsible Army officials trained the soldiers involved in the incident
regarding the applicable ROE as required by the standards. The training coincided with
the principles detailed in the standards and in our view exceeded training requirements
(See Appendix A, section 3).

       Standards

        The applicable ROE, Standing ROE (SROE), Tactical Standard Operating
Procedures (TSOP), and Reuters safety procedures were considered in reaching our
conclusions. They are detailed in Appendix C. The individual requirements are cited and
discussed subsequently in this appendix. Overall, the ROE requirements are based on
self-defense principles under which U.S. Forces are authorized to use “. . . all necessary
means available and all appropriate actions . . . in self-defense,” based on de-escalation,
necessity, and proportionality guidelines. However, when time and circumstances
permit, U.S. forces are required to “. . . challenge and warn prior to using force, and if
force is necessary, use an escalating scale of force.”

        The Reuters journalist safety procedures establish rules for covering conflicts and
give details on safety equipment. The procedures relate to vehicles and markings,
protective equipment, and safety practices and they outline how Reuters works to reduce
risks to their employees.
IPO2008E001                                                                               12


       Facts

        The IO interviewed the soldiers involved in the shooting incident regarding the
sequence of events and actions they took. Specifically, the four soldiers, who fired on the
vehicle, reported that during an on-going armed attack by insurgents against a group of
Iraqi policemen and arriving U.S. forces, they observed what they thought was an RPG
being aimed at friendly and U.S. forces, and therefore, perceived the occupants of the
vehicle to be a threat.

        We also interviewed the soldiers involved in this incident. Our interviews
focused on observations, thought processes, and actions each soldier took, as well as their
knowledge, training, experience, and application of the ROE. We noted no substantive
differences between the soldiers’ initial statements taken on August 28, 2005, and
testimony given us. The soldiers told us they observed a white Daewoo Prince and saw
what looked like an RPG aimed at other “friendly” and U.S. forces and described the
actions they took that led to the driver’s death and the cameraman’s injury.

        In interviews with us, the team leader described the soldiers’ actions and
explained how the car first came to his attention when another soldier called out the
alarm “RPG.” The team leader told us he wondered what the car was doing and then saw
something coming out of the side of the vehicle with a yellow cylinder shaped object. He
said the object was pointed directly at the rear of an Abrams tank. He further explained
the object he saw looked like an RPG but “we could not positively identify that it was an
RPG.” The team leader went on to say they attempted to positively identify the object
using binoculars, but the object was no longer visible. Consequently, he told his soldiers
to fire warning shots to get the attention of the car’s occupants in an attempt to get them
to stop what they were doing.

        The team leader testified that once they fired the first warning shots, the person
holding the suspected RPG “stopped, looked up and got back in very suspicious like,”
and the car immediately started backing up at a high rate of speed as if to flee. He said
they fired more warning shots, and when the car continued to back up, he gave the order
to disable the vehicle. They fired disabling shots until the vehicle stopped at a guardrail.

         Once the vehicle stopped against the guardrail, the soldiers ceased firing and
continued surveillance of the vehicle from the rooftop for about 20 minutes until other
U.S. forces arrived at the scene and secured it. The team leader added that it was
common knowledge in some prior attacks, vehicles would drive up just long enough to
fire a round and get out of the area so they would not get caught.

        We asked the team leader why he considered it suspicious the driver drove away
when he started firing at the vehicle. He explained he did not think the driver was scared
by the gunfire because the driver had just approached an ongoing battle. He interpreted
the driver’s actions as a response to being unexpectedly discovered by his team. He
thought the vehicle occupants were fleeing the discovery.
IPO2008E001                                                                                         13

        A soldier manning the rooftop OP testified on the day of the incident that he saw
the passenger hanging out the window pointing something he assumed was an RPG, and
yelled an alarm, “RPG.” Another soldier said he went to get binoculars in an attempt to
positively identify the object; however, the passenger leaned back inside the car before
the object could be identified.

        The team leader said he also saw the passenger hanging out the passenger window
pointing something towards the tanks. On interview, the other three soldiers involved
told us how they saw a vehicle approach with its passenger hanging out the side window
with a cylindrical object pointed towards the vicinity of the tanks and Iraqi police
vehicles.

         Following their team leader’s orders, the soldiers said they fired warning shots,
and when the vehicle started backing up, fired more warning shots. When the vehicle
still did not stop, they then fired shots to disable it.

       We interviewed all tank and BFV crew members, the majority of whom recalled
hearing about a white vehicle and an RPG but only after the shooting occurred.
However, the platoon sergeant, his tank gunner, and a BFV crew member, heard real-
time radio communication from the OP regarding the RPG.

       The platoon sergeant told us he heard the announcement of RPG on the radio and
he “clenched” thinking he was about to get hit with an RPG. He then heard the
dismounts on the OP (soldiers on the rooftop) had engaged the vehicle, and it was
stopped against the guardrail.

       The tank gunner told us when he heard the radio call from the OP, about the
vehicle and RPG, he turned around and saw a vehicle coming toward the side of his tank.
He told us he saw a person leaning out the window with a yellow cone-shaped object, and
he thought it looked like an RPG pointed at the other tank.

        The BFV crew member told us he heard the team leader say, “we have positive
identification on an RPG, these guys have an RPG,” followed by, “we fired warning
shots, they keep coming, they keep coming….”

        The cameraman was interviewed by Army intelligence personnel, Reuters
personnel, TRAG investigators, and DoD IG investigators. There were contradictions in
his various testimonies regarding whether he or the camera was outside the car window at
any time.

       The TRAG reports indicates the cameraman told TRAG investigators they were
in a white four-door car, one of the Reuters pool cars. 5 The cameraman said there were
no “Press” markings visible on the car as this was the company policy. As they
approached the ambush site, he saw an Iraqi police car parked in the central lane between

5
    The Reuters Baghdad Bureau Chief told us the driver owned the vehicle. Reuters Baghdad Bureau
    safety procedures allowed drivers to use their privately owned vehicles for safety reasons.
IPO2008E001                                                                                     14

two lanes of traffic and two Iraqi police officers standing by the car. The driver pulled
the car over to the right side of the road to get a better look and see if this was the place
the police were ambushed. About 20 seconds later, the driver pointed out some smoke
that might be worth filming; it was slightly to their right and forward of their car. The
cameraman said,

               I placed the camera on the upturned palm of my hand to
               form a stable platform for it and turned it towards the
               smoke in order to film it.…I leant out of the open car
               window very slightly at this point to get a better view.

He further stated that as he did this, he noticed a U.S. soldier standing on the roof of the
Mall to his right and slightly behind him. The cameraman stated, “He had one foot on
the parapet (wall) of the building and I could see that he was holding a black weapon in
his hands.” He said the weapon looked like the normal black rifle that U.S. soldiers
carry, and the soldier on the roof was higher than they were on the road. The cameraman
further stated,

               As soon as I saw the soldier on the roof I moved my
               camera away from the window and down into the footwell
               of the car. As I did this, I saw the soldier on the roof aim
               his rifle at our car and start shooting at us.

The cameraman said he shouted to the driver they were going to kill them and to go back.
He said the driver put the car into reverse gear and started to “reverse away very
quickly.”

         When questioned by Reuters, the cameraman told a slightly different story as to
how far he was out of the window. He said he was filming the smoke out the right
window which was open. He stated, “…but the lenses (sic) of the camera was showing a
little bit.”

        On interview, the cameraman told us repeatedly he did not film through the right
passenger vehicle window. He said he filmed only through the windshield of the vehicle.
When questioned regarding his prior statements he said he did not tell TRAG
investigators he filmed out the open right passenger window but told them he filmed
through the right corner of the windshield. He also denied extending any part of his body
out the passenger window stating, “As Reuters’ employees, we don’t film like this from
outside the window. You should get out of the car to film. You decide…how you want to
do it.…With a camera this size, how are you going to film anything outside the window
of the car?”
IPO2008E001                                                                                            15

       With regard to his interview with Reuters supervisors, the cameraman told us he
had only been released from detention for 2 hours. 6 He stated, “I cheated death. You
know? I avoided death and was a little shaken up. I said what I said then, and I’m telling
you what I’m telling you now.” The cameraman denied filming through the right
passenger window or extending his camera through the window.

         The cameraman further stated that when he and the driver arrived at the ambush
location, about 100 meters away, he saw Iraqi police waving their hands for them to stop.
The driver stopped next to two other vehicles parked at the scene. The cameraman went
on to say “…and as soon as we pulled up, I started recording, a wide, normal recording.”
He said while recording, three tanks passed by and “…that’s when an explosion
happened and smoke came up.” He said the driver pointed out the smoke, and he turned
his camera towards it. While trying to “capture it,” he saw a U.S. soldier on the roof of
the Mall pointing his weapon at him. The cameraman said the soldier was “kneeling.”
He said the soldier didn’t say anything at all and “just started firing at us, from the roof,”
at his side of the vehicle. He said they were scared and the driver put the car in reverse,
trying to back up out of there when the driver was shot.

        The cameraman testified that he was trained not to film from inside a vehicle
because it looks suspicious; however, “it depends on you as a photographer when you
arrive at the scene, location, and you basically determine, you know, how you should take
your shots….” The cameraman also told us he had been trained not to stick his camera
out vehicle windows for safety reasons, as well as quality reasons, that is, being able to
see and frame your subject matter and keep the camera stable.

        The cameraman further explained he was issued protective gear to include a
helmet, a bullet-proof vest, and shin protection; however, he did not usually wear it
because it increased the risk of becoming a target. He stated “…people over there can’t
really tell the difference between a journalist or just being an infidel working for the U.S.
forces or the Iraqi government.”

       Eight of the 10 people who viewed the videotape footage collected by the
cameraman believed the footage depicted the cameraman also filming from his open
passenger side window. Of those eight, four thought the lens or external microphone
extended, to varying degrees, outside the passenger window. One thought no portion of
the camera extended out the passenger side window.

        The bureau chief stated, based on the advice of their security advisors (mostly
former British military or police personnel) without understanding the ROE, they
instructed staff to drive in reverse out of situations if they were worried they were too
close to an incident or coming under fire to show they had no hostile intent. Further,


6
    256th BCT detained the cameraman following the incident from August 28 until August 31 because
    they suspected the cameraman had foreknowledge of the incident based on the time (9:30 A.M.) he
    told 256th BCT personnel he was dispatched by his producer. See pages 22-23 of this Appendix for
    details regarding the detention.
IPO2008E001                                                                               16

because the driver worked with Reuters for 2 years, he would have been told to react in
this manner.

         With regard to Reuters local national journalists wearing protective equipment,
the bureau chief testified, “Reuters reporters have discretion as to what is the safest
approach for them to take.” He said in Baghdad, “the wearing of safety equipment can
itself create more risk than not to wear it, because it identifies the wearer as either a
foreigner or someone with links to foreigners.” For the same reason, after 2003, his staff
declined to use the bureau’s armored vehicles.

        The IO recommended the command take no action against the soldiers finding
they, “…utilized proportional force only after ROE had been met.” The 256th BCT
deputy SJA reviewed the AR 15-6 investigation for legal sufficiency and agreed with the
IO’s conclusions. The Appointing Authority, BG Basilica concurred the soldiers acted
within the ROE. The 3 ID SJA told us he believed the totality of the circumstances
clearly shows the soldiers’ conformed to ROE.

        We interviewed the IO several times concerning the soldiers’ actions during the
shooting incident. He told us his main focus was the ROE and whether the soldiers
involved in the incident followed the rules. The IO stated he found no “negligence” on
the part of the soldiers, and he “felt that the rules of engagement were followed.” The IO
told us he based his conclusion on the “classified” MNF-I ROE. He said based on his
questioning of the witnesses, the soldiers thought the cameraman made threatening acts
when observed leaning out of the vehicle window with what looked like an RPG. The IO
stated the soldiers “on top of the mall felt that the car was a threat to U.S. forces on the
ground.”

       Discussion

        The SROE (CJCSI 3121.01.B) provides for an “inherent right of self-defense” in
response to a hostile act or demonstrated hostile intent. Self-defense includes both unit
and individual self-defense. Both categories of self-defense include defense of other U.S.
military forces in the vicinity. Forces and individuals may be established as enemy either
by their status, or their conduct, through their commission of a “hostile act” or their
demonstration of “hostile intent,” against U.S. forces, friendly forces, or persons or
property under the protection of U.S. forces.

       In accordance with the SROE’s “inherent right of self defense,” it was not readily
apparent whether the vehicle and occupants the soldiers observed were enemy.
Therefore, the soldiers had to rely on the occupants’ conduct to determine their status.

       The 256th ROE defines hostile intent as “[T]he threat of imminent use of force
against…U.S. forces or other designated persons or property….” The SROE states, “The
determination of whether the use of force against U.S. forces is imminent will be based
on an assessment of all facts and circumstances known to U.S. forces at the time and may
be made at any level….”
IPO2008E001                                                                               17

        The MNF-I ROE states, “Self defense engagements occur when commanders or
members of a unit can positively identify that they or one of their elements encounters a
hostile force, an element committing a hostile act or a display of hostile intent.”
(Emphasis Added) Although the MNF-I ROE is silent about what constitutes positive
identification, Annex E to 256th BCT ROE does not require absolute certainty of a hostile
action or intent. It states force may be used against “[A] person about to use any other
force against you, your unit, or other designated friendly forces, and you reasonably
believe that force to be deadly.” (Emphasis added)

        The soldiers positioned on the OP were actively supporting U.S. and Iraqi forces
under attack by insurgents when they noticed an individual pointing what they thought
was an RPG toward those forces. In their testimonies, both during the AR 15-6
investigation and during our interviews, the four soldiers thought the occupants of the
vehicle posed a threat to U.S. forces.

        The team leader said he saw something coming out of the side of the vehicle with
a yellow cylinder shaped object. Though he could not positively identify it, he thought it
could be an RPG, and it was pointed at the rear of an Abrams tank which he characterized
as the tank’s “weak spot.” He had to instantly decide whether hostile intent existed and
whether it constituted a threat to U.S. and friendly forces already engaged in a battle with
insurgents.

       He decided to first challenge the occupant’s actions with warning shots to get
them to cease. When in his judgment, they started to flee, he ordered disabling shots and
ordered the soldiers to stop firing when the vehicle was disabled against the guardrail.

        Although the suspected RPG was later determined to be a video camera, the team
leader believed the vehicle and its occupants constituted a threat to 256th BCT and Iraqi
security forces battling just north of their position. The vehicle was in close proximity of
U.S. forces and Iraqi security forces under attack. Based on their statements, both the
team leader and the other soldiers involved viewed the vehicle occupants’ actions as
having “hostile intent.”

        In keeping with the principles of self-defense established in the SROE, the
soldiers were authorized to use “all necessary means available and all appropriate
actions…in self-defense,” using the guidelines of de-escalation, necessity, and
proportionality. In addition, Annex E of the ROE states, “when time and circumstances
permit, CJTF-7 forces will challenge and warn prior to using force, and if force is
necessary, use an escalating scale of force.” Soldiers apply escalation of force using the
following “shout, shove, show, and shoot” methodology:

   -   SHOUT: verbal warnings to HALT or move as directed by CJTF-7 forces
   -   SHOVE: physically touch another person to restrain, block access, or detain
   -   SHOW: outwardly hold your weapon and demonstrate intent to use it
   -   SHOOT: only to remove the threat of death/serious bodily injury or to protect
       designated property
IPO2008E001                                                                               18



        Interviews indicate the soldiers used escalating force by first shouting and
showing themselves. The Reuters cameraman told us and TRAG investigators he saw at
least one soldier and his weapon on the roof. The soldiers then fired warning shots
followed by disabling shots believing the vehicle posed a threat to U.S. forces. We
concluded the soldiers used escalating force by shouting, showing, and using warning
shots in attempts to cause the vehicle to cease threatening actions. In this instance, the
vehicle started to flee. The soldiers, believing the vehicle occupants possessed an RPG
and because the vehicle occupants did not halt for warning shots, the soldiers fired and
disabled the vehicle. The team leader explained to us it was better to disable the vehicle
so it could be searched, the suspected RPG recovered, and the occupants interrogated.

        We also considered the amount of force the soldiers used in this incident. With
regard to proportionality, the SROE states,

               The use of force in self-defense should be sufficient to
               respond decisively to hostile acts or demonstrations of
               hostile intent. Such use of force may exceed the means and
               intensity of the hostile act or hostile intent, but the nature,
               duration and scope of force used should not exceed what is
               required.

         We concluded the soldiers’ use of force was proportional to the perceived threat.
In total, the soldiers fired 16 rounds that struck the vehicle. Six rounds struck the right
rear area of the vehicle to include the right rear tire and door. Three rounds struck near
the right passenger door jamb, with one of the three rounds passing through the door post
between the right front and rear passenger door, while another entered the vehicle above
the right rear door and exited through the left front door below the window, possibly
striking the driver. Three rounds struck the right front portion of the vehicle. One round
penetrated the upper right portion of the windshield above the passenger seat, and three
rounds penetrated the lower center portion of the windshield above the windshield
wipers.

        During our interviews the soldiers told us they fired to disable the vehicle and did
not intend to harm the occupants. Given the fire power available (three M4 carbines
capable of sustained automatic fire, and one M249 SAW capable of firing around
750 rounds per minute), it appears the force used was measured and did not exceed what
was required or what could have been used.

       We concluded based on interviews with the soldiers on the rooftop OP, they
observed actions they reasonably believed constituted hostile intent and were obligated to
act. The responsibility rested squarely on the team leader’s shoulders, and he decided the
course of action, including escalation along a force continuum. Although ultimately there
was no RPG, during an ongoing battle, the soldiers reasonably mistook a camera and
yellow external microphone protruding from the vehicle’s passenger window as
representing an imminent threat and acted in accordance with the ROE.
IPO2008E001                                                                              19



        Reuters safety procedures in effect on August 28, 2005, made bureau chiefs
responsible for ensuring staff members in hazardous environments are properly equipped
to deal with foreseeable dangers. According to the safety procedures, bureau chiefs must
ensure their staff members are provided with the necessary equipment when working in a
potentially dangerous environment and issue clear instructions such equipment must be
worn, used, or carried as appropriate. Reuters journalist safety procedures in effect when
the incident occurred required both training, and protective equipment issuance and use
for all Reuters journalists operating in hazardous environments. It also required the use
of “press” markings on vehicles. Neither protective equipment nor armored vehicles or
“press” markings were used in this case.

        In accordance with Reuters’ policy, the Bagdad bureau chief gave local national
Reuters journalists the discretion to work without protective equipment in unmarked,
private vehicles to reduce risk from local Iraqi threats. The bureau chief left the wearing
of protective equipment to the local national journalists’ discretion because the risks of
wearing it outweighed the risks of not wearing it. Although the practice may have
decreased the local Iraqi threat, it may also have increased the risk from Multi National
forces.

        In this instance, the interviews we conducted of the cameraman, the Baghdad
bureau chief, and the security consultant indicate Reuters Baghdad bureau issued both the
driver and the cameraman protective equipment but they opted not to wear it, and
although the bureau’s armored vehicles were available, in accordance with bureau
practice, the driver drove his own unmarked vehicle.

        Additionally, the Reuters Baghdad bureau chief implemented policies prohibiting
the exposure of cameras out of their vehicles because they could be mistaken for
weapons. Although when we interviewed the cameraman he denied even filming through
his open passenger window, his prior statements indicate his camera protruded at least
slightly from the open passenger window. While the cameraman’s testimony regarding
his actions was inconsistent, the soldiers consistently stated they observed the passenger
with a cylindrical object outside the passenger window of the vehicle.

        Significantly, the cameraman’s description of the events to TRAG and Reuters is
similar to the soldiers. The cameraman told TRAG investigators he filmed while leaning
out the “open car window very slightly…to get a better view,” and after seeing a soldier
on the roof, “I moved my camera away from the window and down into the footwell of
the car….” He also told Reuters he was filming out the right open window stating, “but
the lenses (sic) of the camera was showing a little bit.” Although the driver told us he
only filmed through the windshield, the testimony of 8 of 10 witnesses who viewed the
videotape footage support the fact that he filmed through the open window. Of those
eight, four thought the lens or external microphone extended, to varying degrees, outside
the passenger window. Only one thought no portion of the camera extended out the
passenger side window. This gives credibility to the soldiers’ testimony they saw an
object they suspected to be an RPG extended from the vehicle.
IPO2008E001                                                                                20



         We also noted the Reuters Baghdad Bureau safety guidelines for their drivers and
staff in Iraq advising them to approach incidents with care, warning that soldiers and
police will be nervous. Drivers and staff are advised to return to the bureau if they feel
their life is at risk, carefully extracting themselves without speeding unless required. The
policy further states that if a vehicle comes under attack, the driver should reverse or U-
turn away from the threat, “keeping the engine block between you and the threat,” and to
drive into cover or get distance between you and the threat. Passengers are advised to get
into the vehicle footwell or as low as possible to receive cover from the engine against
small arms fire.

        In this instance the driver and the cameraman acted in accordance with their
procedures when under attack. U.S. soldiers reacted with warning shots as the
cameraman quickly retracted the suspected RPG into the vehicle, and with disabling
shots in reaction to the driver reversing the vehicle from the area following warning shots
fired.

        We concluded that the cameraman’s conduct and the vehicle reversing in
response to warning shots established a reasonable belief of hostile intent and authorized
the use of force.

       2.	 Did responsible officials comply with applicable standards for
           investigating the death and injuries in this incident?

         We concluded the IO did not comply with certain standards for investigating an
incident. He did not pursue logical investigative leads and did not properly account for
critical evidence, resulting in its loss. The IO’s omissions caused or contributed to
Reuters’ impression the investigation was pro forma and less than independent.

       Standards

        The applicable requirements from AR 15-6, “Procedures for Investigating
Officers and Boards of Officers,” September 30, 1996, are detailed in Appendix C. The
individual requirements are cited and discussed throughout this report. To ensure
investigative sufficiency, AR 15-6 requires the IO to pursue all investigative leads, to
collect, consider and preserve all relevant evidence, and to fully document and report the
investigative information, together with any recommendation resulting from the
investigation. With respect to witness testimony, the IO should segregate witnesses to
preclude collusions in testimony. With respect to physical evidence, such as a videotape
that cannot be included in the investigative report, AR 15-6 requires establishing chain­
of-custody to preserve the evidence and maintain its authenticity for any subsequent legal
proceeding. The regulation also provides for the ultimate disposition of such physical
evidence.
IPO2008E001                                                                                            21


         Facts

        Appointment of investigating officer. The operational chain of command for the
soldiers involved in this incident is as follows:

         1. Commander, C Company, 1st Battalion, 156th Armor
         2. Commander, 1st Battalion, 156th Armor
         3. Commander, 256th BCT
         4. Commander, 3 ID
         5. Commander, Multi National Corps – Iraq (MNC-I)
         6. Commander, US Central Command (CENTCOM)

       The incident was reported through the chain of command. BG Basilica appointed
the IO assigned to HHC, 256th BCT to investigate. The appointment memorandum, dated
August 28, 2005, issued under the authority of BG Basilica, was signed “For” the
commander by a noncommissioned officer assigned to the 256th BCT SJA. The
memorandum directed the IO to submit findings and recommendations within 72 hours
concerning the escalation of force in this incident. 7

        BG Basilica selected and appointed the IO the same way he normally did for all
AR 15-6 investigations, based on the IOs knowledge, availability, and previous AR 15-6
investigative and operational work in Iraq.

        Regarding BG Basilica’s appointment of the IO, MG Webster, Commander, 3 ID,
told us he expected his subordinate commanders to investigate matters involving
extensive property damage and death. MG Webster testified his SJA and an assistant
SJA met with him and reviewed the investigation to include the attachments.
MG Webster stated he approved the investigation based on the attorneys’
recommendation it was legally sufficient, but he did not recall whether he particularly
signed an approval document. 8

       Investigative activity. The IO told us the 256th BCT SJA notified him of his
appointment. He understood his appointment was based on his in-theater operational
experience. Since he was preparing to redeploy early to the unit’s home station in
Louisiana to help the Hurricane Katrina response, he had to redraw his weapon and other
equipment. After organizing an escort patrol, he departed for the scene. He estimated


7	
     AR 15-6 “Procedures for Investigating Officers and Boards of Officers,” dated September 30, 1996,
     Subparagraph 2-1.a, “Authority to appoint,” directs only a General Court-Marital Convening Authority
     (GCMCA) may appoint an investigation or board for incidents resulting in the death of one or more
     persons. GCMCA is an administrative designation conferring military judicial jurisdiction and is also
     used to designate authority for various administrative functions, including appointment of IOs under
     certain circumstances (AR 15-6, paragraph 2-1.c.). The GCMCA was MG Webster; BG Basilica was
     not a GCMCA. We conducted interviews of MG Webster and BG Basilica, as well as their respective
     SJAs. None of the individuals interviewed were aware or recalled AR 15-6 required a GCMCA to
     appoint the IO to informally investigate an incident resulting in the death of one or more persons.
8	
     We subsequently queried the SJA, 3 ID who was unable to locate an endorsement by MG Webster.
IPO2008E001                                                                                               22

arriving at the scene about 45 minutes after the event and spent 30 to 45 minutes at the
scene investigating.

        The IO told us he was familiar with the physical layout of the Mall area;
therefore, he did not need to go on the roof to understand that vantage point. He was also
aware of the security environment at the site and the ambushes earlier in the day. While
at the scene, the IO took photographs, which he included as an exhibit to his report.

        At the scene, the IO separately interviewed the four soldiers who shot at the
vehicle; they pointed out the location where they initially spotted and then challenged the
vehicle. Following oral interviews at the scene the soldiers returned to the Mall roof.
While at the scene or later, the IO directed the soldiers provide written statements when
they got off duty that evening. Once off duty, each soldier prepared a written statement
while located in the same room and turned them in to someone other than the IO. 9 They
did not talk to the IO again after he left the incident scene. The IO told us he reviewed
the soldiers’ statements with them, the following day. 10 He did not recall who brought
the completed witness statements to him.

        The written statements from the four soldiers have similar content and
construction. Their team leader testified after talking to the IO on-scene, they finished
their duty day atop the Mall. While there, the soldiers discussed their recollections of the
shooting and concluded they had a common understanding of the event.

        We asked the IO why he did not separate the soldiers on the roof of the Mall. He
explained he did not have the authority to remove them from their post, nor did he ask to
have them removed. He said he was not concerned the soldiers would talk about the
incident among themselves once they went back on the roof. Consequently, the soldiers,
with the event under investigation, were sent back to the roof and worked together for
several hours.

        BG Basilica told us that he agreed the IO did not have the authority to relieve the
soldiers from their post. Though he said the IO could have requested the soldiers be
replaced, BG Basilica indicated to us the security conditions at the time probably did not
warrant replacing them.

        At the scene, using an interpreter, the IO also talked to the Reuters cameraman.
The IO either ordered or participated in the decision to detain the cameraman because the
cameraman’s answers about when he was sent to the scene were inconsistent with events
at the scene. In subsequent interviews by Army interrogators and Reuters supervisors,
the cameraman maintained that Reuters dispatched him to the ambush scene about two


9
     The Battalion S-2 (Intelligence Officer) told us that while at the TOC, he administered the oath to the
     four soldiers swearing them to the contents of their written statements; however, he did not assist them
     in preparing their statements.
10
     We referred inconsistencies in the recollections of the interview process involving the IO and some
     interviewees to the Commander, 256th BCT. The inconsistencies did not materially impact our review.
IPO2008E001                                                                                            23

hours before the event occurred. Such information suggested foreknowledge of the
ambush and played a part in the decision to detain him.

        A couple of days after the detention, the IO spoke to the Reuters Baghdad bureau
TV producer who had dispatched the cameraman to the scene. The TV producer
provided a time reference for the dispatch much closer to the actual event. Additionally,
the Army interrogators told the IO the cameraman was upset, confused, and gave
inconsistent information. The IO told us that at some point he realized the time the
cameraman was dispatched did not directly relate to his investigation about whether the
soldiers’ actions conformed to the ROE. He then decided to leave the conflicting
information about the cameraman’s dispatch time for resolution by military intelligence.

        The cameraman lied to Army interrogators about his role in the incident, claiming
he did not film and did not see American soldiers shooting. He later explained to Reuters
supervisors and to TRAG investigators he was afraid, and another detainee told him if he
admitted to seeing American soldiers shooting, he would not be released from detention.
The cameraman was released from detention three days later on August 31, 2005.

        The cameraman’s statements from separate interviews with Reuters supervisors 11
and TRAG investigators indicate the cameraman filmed through the open passenger
window and leaned slightly out, or slightly exposed the camera lens; however, when we
interviewed the cameraman, he said he filmed only through the front windshield.

        The IO did not participate in and was not present for interviews of the
cameraman, but provided Army interrogators with pertinent questions regarding his
investigation. The IO signed the cameraman’s translated statements that Army
interrogators obtained.

        The IO did not direct canvass interviews for possible witnesses in the surrounding
area, and based on his experience in Iraq, doubted it would have been fruitful. He also
thought such activity increased the force protection risk. Although not directed by the
IO, a military policeman and interpreter who arrived on scene conducted canvass
interviews of homes in the immediate neighborhood. They did not locate any witnesses.

        The IO did not ask soldiers at the scene if they took photographs and was satisfied
the photographs he took were sufficient. He recalled information from the interrogators
or from the press about other journalists possibly being at the scene. However, he
discounted the information and did not pursue it. He said the information was not
specific and the interrogators thought the cameraman was confused and that his
information inconsistent.

        The IO did not consider impounding the Reuters vehicle for evaluation as
evidence. He told us he knew where the bullets came from; the soldiers told him they
shot the vehicle.

11	
      We requested a copy of the Reuters videotaped interview of the cameraman, but Reuters couldn’t
      locate the videotape. We extracted this quote from a translated excerpt provided by Reuters.
IPO2008E001                                                                               24



       At our request, the MNC-I Ballistics Laboratory examined the Reuters vehicle.
We asked them to determine the precise trajectory angle at which each bullet struck the
vehicle, and the sequence in which the bullets struck the vehicle.

        As previously stated (see page 18) 16 bullets struck the vehicle. The MNC-I
Ballistics Laboratory determined the direction and angle of entry into the vehicle (either
front to back or back to front) for the 16 bullets. In general, the bullets’ angles of entry
indicated the vehicle was, at some point, north of the Al Adil Mall, directly west of it,
and south of it. The laboratory could not determine the sequence the bullets struck the
vehicle because the exact location of each soldier when he fired could not be determined
as well as other unknown factors involving the vehicle’s movement.

       The laboratory observations did not conflict with the witness testimonies.

         In addition to the team leader and three soldiers manning the OP, the AR 15-6
investigation included sworn statements from the platoon leader, the platoon sergeant, a
tank commander, and a BFV commander who were on duty when the incident occurred.
In sworn statements the platoon sergeant and BFV commander recalled radio calls
reporting a white vehicle with an RPG aimed at a tank, which the soldiers on the roof
engaged and disabled. The sworn statements did not specify whether they heard the radio
traffic as the incident occurred or after the fact.

        The IO did not interview the remaining tank and BFV crew members. He told us
he did not interview other possible witnesses because the shooting was done by the
soldiers on the OP; as far as the situation on the ground, he felt he had captured sufficient
information to conclude his investigation.

        We interviewed all tank and BFV crew members as well as the soldiers who
manned the OP. The majority to include the aforementioned BFV commander, recalled
hearing about the soldiers on the rooftop seeing a white vehicle and hearing the incident
involved an RPG, but only after the shooting occurred. As detailed on page 13 above, the
platoon sergeant, his gunner, and a BFV crew member heard real-time radio traffic from
the OP regarding the vehicle, the RPG, and the engagement, and provided additional
significant testimony, especially the gunner who testified hearing radio traffic, and seeing
the vehicle and what he believed was an RPG.

        Objective measurements at the scene. The IO did not take objective
measurements at the scene and did not mention measurements in the narrative portion of
his report. The four soldiers who fired on the vehicle provided written statements. In
two written statements the soldiers estimated the vehicle was 250-300 yards away from
them when they challenged it and started firing. The other two soldiers on the roof did
not mention distances in their statements.

       The IO told us he doubted the distance estimates in the soldiers’ written
statements because they were in an elevated position. He said, at the scene, the soldiers
IPO2008E001                                                                                           25

pointed out the position of the car when they spotted and challenged it. The IO did not
mark and objectively measure the position where the soldiers said they spotted and
challenged the vehicle. Using the location the soldiers pointed out at the scene, the IO
used a software program, “Falcon View,” to obtain a digital overhead image of the area
and approximated the distance between the soldiers’ location and the vehicle. The
estimated distance was 54 meters. He placed the plotted overhead image in his report at
Exhibit T, including a legend explaining the image, but not the basis for the
measurements. His narrative report made no reference to the measurement displayed in
Exhibit T. Additionally, we determined Exhibit T was not released to Reuters, even in
redacted form, because its distribution was limited by DoD policy. 12 Therefore, this
information related to distances was not available for consideration by TRAG
investigators.

        As previously stated, TRAG investigators examined the portions of the AR 15-6
investigation released to Reuters. Concerning distance estimates, they only knew the
estimates of 250-300 yards provided in the two soldiers’ statements. Based on these
distance estimates, the TRAG investigators concluded the soldiers were too far away to
see the camera and therefore mistake it for an RPG. This formed the basis for their
conclusion the soldiers did not comply with the ROE.

       National Geospatial-Intelligence Agency (NGA) estimations and basis. At our
request, using information derived from the AR 15-6 investigation report (other than
Exhibit T) and interviews we conducted, the NGA estimated locations and distances
between the soldiers and the vehicle 13 . Appendix D represents the results of the NGA
work.

        During our interviews, three of the four soldiers on the roof placed the vehicle at
approximately point “1“on Appendix D, and themselves at approximately point “OP”
when they first spotted and then fired, as their leader explained, to warn the vehicle
occupants to stop doing whatever they were doing. Based on the three soldiers’
testimony to us and the IO’s notes on photographs he took at the scene, NGA measured
the distance as 66 meters from the soldiers on the roof, point ‘OP,” to where the soldiers
first spotted the vehicle, point “1.” NGA also analyzed photographs taken at the scene
and placed the final resting place of the Reuters vehicle at point “2.” The fourth soldier
and the cameraman told us when the soldiers spotted and then shot at or near the vehicle,
it was adjacent to the Mall on the roadway labeled “Access RD (N)” and traveled
backwards only on “Access Road (N)” where it stopped.

        Evidence Handling. The IO photographed the items recovered from the vehicle,
to include cellular phones, press identification, video camera and film cassettes, etc., (see
Appendix E) and unit members took the items and the cameraman to the Brigade
Interrogation Facility. The IO told us he did not create a chain of custody for the items

12
     DoD Directive 5030.59, “…distribution of certain unclassified imagery and geospatial information and
     data is limited to the Department of Defense and to authorized DoD contractors….”
13
     We sought assistance from NGA because of the time and travel associated with getting measurements
     at the scene. We do not suggest the IO should have sought help from NGA.
IPO2008E001                                                                                              26

and did not recall chain of custody guidance from his AR 15-6 investigator training. He
explained many of the investigations he previously conducted were not initiated at the
scene of an event but later on in the process. Also, items of potential intelligence value
found or obtained from detainees were routinely given to the intelligence specialists.

        One of the items seized was the cameraman’s videotape. The footage was filmed
at the scene where the soldiers shot at the vehicle. On August 31, 2005, the IO was at the
3 ID public affairs office along with SJA personnel and Reuters representatives. They
viewed the videotape recovered from the Reuters camera at the scene, watching it a
couple of times. The IO told us he considered the video “benign” and thought it neither
supported nor refuted the testimony of the soldiers on the Mall roof. After the viewing,
the 256th BCT SJA gave the video to the IO and told him to hold on to it.

        While impractical to attach the videotape to the report, the IO did not create a
clear and accurate description of its contents, and he decided not to mention the video in
his report. The only description we found of the video’s contents was in the classified
interrogation reports appended as exhibits to the IO’s report.

        On September 2, 2005, following short notice, the IO left Iraq, returning to
Louisiana. While packing, he inadvertently included the videotape in his baggage. A
couple weeks later, the 256th BCT SJA via email, instructed the IO to mail the video to
the 3 ID SJA in Iraq. However, the IO explained that his duty schedule supporting
Hurricane Katrina relief efforts left him no time to mail the video; he asked his wife to
mail the video and obtain a postal tracking number.

        The IO’s wife told us her debit card records indicate she mailed the videotape on
September 13, 2005, from the Bennington Street Post Office, Baton Rouge, Louisiana.
At the post office, she learned she could not receive a mail delivery tracking number for
mail sent to an overseas U.S. military address. She called her husband from the post
office and explained the problem. He told her to do the best she could. She mailed the
video without a tracking number; it never arrived 14 .

        The 256th BCT SJA verified that following the viewing of the videotape on
August 31, 2005, he instructed the IO to hold onto the videotape. The 256th BCT SJA
told us he intended to have a property receipt done the following day, but when he went
looking for the IO, he learned he flew back to Louisiana earlier that morning. Although
the 256th BCT SJA told us in his legal opinion the contents of the tape had no probative
value in connection to the soldiers actions, he planned to make a copy for himself, and
give the original to the Chief, Admin Law, 3ID.

       Associated Press Television Network (APTN) Video. While trying to resolve
information related to the cameraman in Army interrogation reports about the presence of

14
     During our review, we attempted to locate the video. Through liaison with postal officials in Atlanta,
     GA, we learned the Postal Service destroys undelivered first class mail after six months. We can not
     speculate on the impact of disruptions created by Hurricanes Katrina and Rita along the Gulf Coast
     during September 2005.
IPO2008E001                                                                                 27

other journalists at the scene of the shootings, we learned APTN videotaped a portion of
the event. The APTN cameraman told us on August 28, 2005, he and his driver were sent
to cover the IPS ambush in the vicinity of Al Adil Mall. As they drove northbound on
road leading to the mall [Route Vernon], he filmed a white vehicle moving southbound in
reverse in his lane of travel taking gunfire. He taped the event until the car stopped
against the guardrail. He noticed soldiers on the roof of the Mall shooting at the vehicle
but did not film them. They then quickly drove from the area and notified their office.

       Later, the APTN cameraman found out the white car may have belonged to
Reuters and journalists were killed or injured. They returned and filmed the white car
under control of U.S. forces from a safer vantage point. He estimated each video clip
was 40-50 seconds long.

       The Associated Press (AP) provided the APTN cameraman’s videotape. We
reviewed it, but did not see a white vehicle moving southbound in reverse taking gunfire.
The footage does not appear to have been filmed during the shooting incident. The tape
was subsequently examined at the National Media Exploitation Center; however, the
Center could not find embedded date/time data to verify the date the tape was made.

        Iraqi Police and Autopsy Reports. Press articles included in the AR 15-6
investigation report exhibits mentioned an Iraqi police investigation. The police report
was not attached to, or mentioned in the AR 15-6 report. The IO also recalled learning
that an autopsy was conducted on the driver, but told us he did not think the police or
autopsy reports were necessary for his investigation. He also did not recall seeing Iraqi
police at the scene.

        We obtained a copy of the Iraqi police report and Reuters provided a copy of the
autopsy report. The reports did not detail any substantive investigative activities and
were inconsistent or conflicted with other known aspects of the incident. Additionally,
the Iraqi police report stated the event occurred on August 29, and U.S. forces personnel
barred Iraqi police from the incident scene. The platoon leader at the scene did not
remember Iraqi police at the incident, but thought he called his Battalion Headquarters to
request the Iraqi police once he turned the driver’s body over to Reuters supervisors. He
thinks he was told the Iraqi police would not come back to the area because they had just
been ambushed there.

       Discussion

        We identified errors in the conduct of the investigation that may have contributed
to a lack of confidence by third parties in the IO’s work and the report’s conclusions.
The errors included the following: evidence was not preserved, logical investigative leads
were not pursued, and investigative information was not fully documented and reported.

        Evidence handling. We concluded that contrary to Army policy, the IO did not
preserve and account for evidence (the video) depicting a portion of the incident under
investigation, damaging the investigation’s credibility. The IO understood the
significance of the videotape. He told us he did not make up his mind about the soldiers’
IPO2008E001                                                                                 28

compliance with the ROE until after he viewed the videotape and judged that the video
neither supported nor refuted the soldiers’ actions.

        As discussed on page 15, the 10 people who viewed the videotape provided
varying testimonies regarding its contents creating question regarding the videotape’s
value as evidence. The loss of the videotape and the omission of the required clear and
accurate description of its contents in the report, deprived third parties and reviewing
officials an objective standard against which to measure the recollections of witnesses.

        Logical investigative activity. AR 15-6 mandates IOs examine all sides of an
issue thoroughly and impartially. The expectation to thoroughly and impartially tell all
sides of a story requires an exceptional effort to verify information in serious matters,
such as the death of a person. Although the exigent circumstance of this incident
provided limited opportunities to corroborate information, we found the IO did not
pursue the possibility other journalists witnessed the incident, and did not obtain Iraqi
police and autopsy reports.

        The IO told us he discounted or did not pursue information about the possible
presence of other journalists at the scene and the existence of Iraqi police and autopsy
reports. In the end, after reasonably discounting the credibility of the cameraman, he
interviewed other members of the 256th BCT for information only concerning the
shooting incident and decided other possible sources of information (other journalists,
police, and autopsy reports) would not be helpful.

        We tracked down video of the incident allegedly taken by other journalists on the
scene and the Iraqi police and autopsy reports. The video and reports did not provide
significant information toward resolving the incident. However, neither we nor the IO
could know that before the information was collected. By not pursuing those
investigative leads, he fostered suspicion that he arrived at less than objective
conclusions.

        Additionally, the IO did not seize the vehicle and preserve it for possible
evidentiary processing. He told us he knew where the bullets came from; the soldiers
told him they shot the vehicle. The location of bullet strikes could corroborate vehicle
location and verify or refute shooter’s testimony with regard to firing to disable and help
to explain bullet strikes to vital areas such as the windshield and passenger compartment
that probably killed the driver. At the scene of a death investigation, in an unstable
security environment, the vehicle should have been removed to a secure area until the
investigation concluded, and then disposed of in accordance with regulatory guidance.

        AR 15-6, subparagraph 3-7d.,”Discussion of evidence” empowers IOs to direct or
request witnesses not discuss their statements or testimony with other witnesses. We
asked the IO why he did not separate the soldiers on the roof of the Mall. He explained
he did not have the authority to remove them from their post, nor did he ask to have them
removed. BG Basilica agreed. The IO said he was not concerned the soldiers would talk
about the incident among themselves once they went back on the roof.
IPO2008E001                                                                                              29



       The soldiers, with the event under investigation, were sent back to the roof to
work together for several hours. During that time, as their leader explained to us, they
began,

                   Talking about it and I was like okay, we getting, you know
                   we got to get our [expletive] straight and make sure you
                   know, I might go to jail, we all might go to jail, I don’t
                   know and then we’re talking it out and then we said, you
                   know the crazy part about it is we don’t have to get our
                   stories together because all the stories match up, because
                   it’s the truth of what happened.
        We acknowledge witnesses who meet and get their stories straight damage the
credibility of an investigation. In this case, we view the damage somewhat ameliorated
by the cameraman’s testimony to his employer, and later by his testimony to TRAG
investigators hired by his employer. In those testimonies, the cameraman said the camera
lens was “showing a little bit” out the open side window and he slightly leaned out the
window.

        In the end, the cameraman’s and soldiers’ testimonies are generally consistent.
Since the yellow conical shaped external microphone extended past the end of the camera
lens (see Appendix E), it would have been visible. Additionally, since the cameraman
saw and described a soldier on the roof of the Mall; it is reasonable that the soldiers could
see the cameraman.

       AR 15-6 states the IO “should” assist the witness in preparing a written statement
“to avoid inclusion of irrelevant material or the omission of important facts and
circumstances,” and “care must be taken to ensure that the statement is phrased in the
words of the witness.” Additionally, with regard to specific responsibilities, Paragraph 1­
5, “Functions of investigations and boards” establishes the duty of the IO or board to
“ascertain and consider the evidence on all sides of each issue, thoroughly and
impartially….”

         In this instance, the IO did not comply with these provisions of AR 15-6. He was
not present when the four key witnesses prepared their statements, which as previously
stated contained similar testimony. The IO did not ask supplemental questions of the
witnesses to obtain clarification regarding key issues in writing. Such actions by the IO
appeared to have fueled Reuters’ suspicions about the credibility of the Army’s
investigation. The complaint specifically expressed concerns about the remarkably
similar stories by all four U.S. soldiers which Reuters did not think the IO challenged or
tested. 15




15	
      April 7, 2006, letter from Ms. Jamie Gorelick, Attorney at Law, Wilmer Cutler Pickering Hale and
      Dorr, LLP, 2445 M Street, NW, Washington, DC 20037-1487, representing Reuters, pp. 1 and 5
IPO2008E001                                                                              30

       He did not ask what the witnesses meant when they said the individual was
“hanging out” of the car window or why they believed the object they saw (two witnesses
described the object as long and cylindrical) was an RPG, and as stated previously, he did
nothing to clarify with the witnesses the distances estimated. He did not clarify how the
witnesses having seen the Reuters video camera could have mistaken it for an RPG.
Additionally, he did not use the contents of the videotape to verify or refute the soldiers’
testimony regarding the extent the cameraman may have been exposed through the
passenger window.

        Likewise, the IO did not ask the soldiers whether they mistook the yellow conical
external microphone of the Reuters video camera for an RPG warhead, and he neither
asked whether the witnesses had ever seen an RPG with a yellow warhead, nor verified
RPGs with yellow warheads exist. We determined RPGs with yellow warheads exist
(See Appendix F). Additionally, the IO did not ask the witnesses to explain how their
disabling shots could strike the windshield and the passenger compartment of the vehicle.

        Of the soldiers on-site when the incident occurred, the AR 15-6 investigation
contained sworn statements only from the platoon leader, the platoon sergeant, another
tank commander, and a BFV commander. The IO told us he decided not to interview
remaining tank and BFV crew members because the shooting was done by the soldiers on
the OP, and he felt he had sufficient information to conclude his investigation. The
sworn statements of the platoon sergeant and a BFV commander reflected the soldiers on
the Mall roof (which he referred to as “dismounts”) called in reporting a white vehicle
with an RPG aimed at the other tank; they engaged the vehicle, and the driver was
wounded or dead; however, it was not clear whether they heard the radio traffic real-time
or after the fact.

        We interviewed all tank and BFV crew members. The majority to include the
BFV commander recalled hearing about the soldiers on the rooftop seeing a white vehicle
and hearing the incident involved an RPG, but only after the shooting occurred. On
interview, we clarified the platoon sergeant heard the announcement of RPG on the radio
before OP soldiers engaged the vehicle. Additionally, we found two more crew
members, the platoon sergeant’s tank gunner and a BFV crew member, who heard real-
time radio communication from the OP regarding the RPG. The tank gunner testified he
heard radio traffic about the RPG and saw the vehicle and what he believed was an RPG
pointed at the other tank. A BFV crew member said he heard the OP team leader say,
“…we have positive identification on an RPG, these guys have an RPG,” followed by,
“…we fired warning shots, they keep coming, they keep coming….”

        This information provides corroboration that the OP team observed what they
thought was an RPG from their vantage point as the event occurred. More significantly,
a witness on the ground states he also saw the vehicle and thought an RPG was pointed at
a tank. The IO’s decision not to conduct interviews of all tank and BFV crew members at
the scene resulted in an incomplete investigation and, therefore, the report did not
thoroughly address all sides of the issue.
IPO2008E001                                                                                        31

        Investigative reporting. AR 15-6, paragraph 3-15 b., highlights the importance of
including clear and accurate written descriptions or depictions (such as photographs) of
physical evidence in the report. Although the IO photographed the video camera and
videotapes, he did not prepare a clear and accurate written description of the video’s
contents. In fact, he did not mention the video in his report, although a classified
interrogation report exhibit did refer to it. As mentioned above, his failure to create a
written description of the video’s contents exacerbated the impact of the video’s loss.

        A similar effect was created when the narrative of the report did not describe how
the IO collected information used to estimate distance between the soldiers and the
vehicle when they first spotted and challenged it. Though the IO told us he created an
exhibit from information he obtained from the soldiers who challenged the vehicle, he
neither explained the origin of that information nor created and maintained
documentation of the verbal interviews and information collected at the scene.
Complicating the matter, the exhibit with the IO’s estimate of 54 meters was properly
removed from the redacted report released to Reuters. 16

        Obviously, losing video evidence of an incident under investigation is contrary to
regulatory guidance that requires property collected during an investigation to be
maintained and disposed of in accordance with Army regulations when no longer needed.
Additionally, the IO’s failure to account in his report for collecting and resolving
discrepancies over distances and for the information he used in his exhibit estimating the
distance made the report an incomplete record of his investigation and, therefore, the
report did not thoroughly address all sides of the issue.

          3.	 Review of Rules of Engagement Training and AR 15-6 Investigation
              Training

       In an effort to determine whether systemic weaknesses in policies and practices
contributed to the death and injury of Reuters employees or contributed to the quality of
the AR 15-6 investigation we reviewed the Army unit’s conduct of both ROE and AR 15­
6 investigation training. With regard to AR 15-6 investigation training we focused
primarily on the training the unit provided.

       Responsible Army officials adequately trained the soldiers involved in the
incident regarding the applicable ROE as required by the standards. The training
coincided with the principles detailed in the standards and in our view exceeded training
requirements.

        The Commander, 256th BCT, and 256th BCT SJA adequately trained the IO to
investigate this incident.


16	
      Exhibit T was labeled “Limited Distribution.” May 13, 2003, Department of Defense Directive
      (DoDD) 5030.59, “National Imagery and Mapping Agency (NIMA) Limited Distribution Imagery and
      Geospatial Information and Data.” The DoDD restricts imagery and geospatial information and data
      labeled “limited distribution” to DoD and certain defense contractors.
IPO2008E001                                                                                           32


         Standards

        Overall, AR 15-6 requires a commander to appoint an IO that is qualified
(education, training, experience, length of service and temperament) to conduct the
investigation. See Appendix C for the standards related to ROE training and AR 15-6
investigation training.

         Facts

       ROE Training. The 256th BCT SJA testified, after the 256th BCT, received
deployment orders to Iraq in support of Operation Iraqi Freedom, he developed
mandatory training based on ROE training requirements outlined in the SROE. He
personally conducted ROE training at Fort Hood, Texas and all 256th BCT soldiers were
required to attend.

        The 256th BCT SJA further testified ROE training covered the following topics:
the distinction between hostile intent and hostile action; verbal, hand, and light warnings;
signage; and escalation of force, which included verbal warning order, warning shots,
disabling shots, and ultimately, the application of deadly force. He said this training was
extracted into pocket-sized cards that were distributed to every soldier who completed the
ROE training. (see Appendix G - 256th BCT ROE Card 661) He stated that around April
2004 ROE training began with 1 week of classroom training at Fort Hood, Texas,
followed with 2 weeks of mission rehearsal exercises and additional classroom training at
the National Training Center (NTC), Fort Irwin, California. ROE training continued at
the command’s staging area in Kuwait, prior to the unit entering Iraq. ROE training
continued throughout the unit’s 12-month deployment.

       The 256th BCT SJA also testified the soldiers manning the OP on August 28,
2005, were not only “schooled” in ROE in the classes at Fort Hood, Fort Irwin, and
Kuwait, but also, by this time were very experienced soldiers, having been in theater 10­
months by that point. With regard to the ROE, he stated he had no question in his mind
they knew what they were doing. He added the unit certified 100 percent attendance at
ROE training seminars.

         BG Basilica testified ROE training was extensive with 100 percent attendance
several times. He stated he mandated by mid-tour a second or third 100 percent ROE
training the 256th BCT SJA and his staff conducted. BG Basilica explained he ordered
this training as his unit transitioned from a rural area of operations into the “downtown”
urban area. He felt it prudent to go through ROE training again to address an
environment with a “higher density of civilians.”

        Regarding the training of the four-member OP team, BG Basilica testified he
presumed they were highly trained and highly experienced because his unit had been in
Iraq for almost a year. He characterized his unit as “seasoned” at this point in time, with
“...17,600 combat patrols, 35 soldiers killed in action, 300 plus Purple Hearts.” 17

17
     The Purple Heart is awarded to soldiers injured or killed during armed conflict with an enemy.
IPO2008E001                                                                            33



        The soldiers who engaged the Reuters vehicle on August 28, 2005, acknowledged
attending ROE training at Fort Hood, Fort Irwin, and Kuwait. The team leader testified
while in Iraq they were required to carry the 256th BCT ROE cards as part of their
uniform and they had them in their pockets. We also interviewed other unit personnel on
duty who were manning armored vehicles when the incident occurred. Without
exception, the soldiers verified training was extensive both prior to and during their
deployment. Additionally, soldiers testified they were tested on their knowledge of ROE
throughout their deployment. The platoon leader and platoon sergeant on duty on August
28, 2005, verified the extensive nature of ROE training and the issuance of ROE cards to
unit personnel. The platoon sergeant testified the carrying of ROE cards was enforced
through daily pre-combat checks and inspections.

        The 256th BCT records we reviewed included slide presentations used to provide
ROE training to soldiers. These presentations provided definitions of the key
components of ROE and depicted real-life training vignettes and discussion of proper
actions a soldier should take when applying the ROE to a situation.

         We verified unit training was conducted between: May 18 and August 20, 2004,
at Fort Hood, Texas; between August 20 and September 30, 2004 at NTC; between
October 6 and October 22, 2004 in Kuwait, and again periodically when the unit arrived
in Iraq.

         AR 15-6 Investigation Training. The 265th BCT SJA testified shortly after the
unit’s arrival in Baghdad, he recommended BG Basilica appoint only mature officers
(Major and above) to conduct AR 15-6 investigations. He testified BG Basilica believed
command investigations were important, so BG Basilica decided to conduct 15-6 IO
training personally. Using an Army Judge Advocate General (JAG) School designed
program of instruction, BG Basilica personally instructed perspective IOs. He stated BG
Basilica was an experienced IO, “…so he knew and demanded high standards in these
investigations. He didn’t want anything pencil whipped.” The 256th BCT SJA also
testified the IO for the August 28, 2005, incident, received that training.

        BG Basilica verified that he personally conducted AR 15-6 training for the
officers in his command at the rank of Major and above. BG Basilica testified he wanted
to ensure his officers understood what the regulation required and to emphasize his
expectations for them to support facts with evidence. He testified that to emphasize how
important it was for him “in terms of the standards and the quality,” he taught the class
himself.

       The AR 15-6 investigation training slides prepared by the 256th BCT SJA and
used by BG Basilica covered the following topics:

       − What is a 15-6 investigation?

       − 15-6 Sequence of Events 

IPO2008E001                                                                              34


        − What should the 15-6 officer be looking for? (Who, What, When, Where,
          Why)
        − Written statements
        − Written Conclusions
        − UCMJ [Uniform Code of Military Justice] Violations
        − Recommendations

The AR 15-6 training slides highlighted the following specific requirements:

        − Conclusions should be factually supported
        − Witness statements will be detailed, straight to the point and answer the 5
          W’s 18
        − The 15-6 officer’s knowledge and experience are very relevant when
          evaluating the facts and formulating conclusions
        − Interview all witnesses, examine all evidence
        − Base conclusions and recommendations on the facts and military experience

       We discussed interviewing witnesses with BG Basilica. BG Basilica testified he
covered witness interviews to the extent they should be detailed, to the point, and answer
the “5 W’s” (who, what, when, where, and why).

        BG Basilica explained every soldier, and this group of Majors received a
tremendous amount of evidence handling training because of their role in detaining
suspected insurgents during combat operations. He said they trained extensively on what
he called “police work,” which he described as being able to provide evidence to justify
holding suspected insurgents in detention. BG Basilica explained everyone had to learn
“crime scene type techniques,” which he described as picking up evidence and taking
pictures. BG Basilica stated that training included: approaching incident scenes;
gathering witness statements; taking pictures; securing, safeguarding, and handling
evidence. With regard to the AR 15-6 investigation conducted in response to the instant
case, BG Basilica stated it achieved his expectations because it contained sufficient
information for him to make a judgment about what occurred and provided a factual
representation.

         On interview, the IO verified he received AR 15-6 IO training in Baghdad. He
stated, the training consisted of “the process for conducting a 15-6, the recording of
evidence…, the process of documenting, analyzing, recording…so that everybody was
standardized, they understood what the standard was, they understood how to go about
doing it,” and BG Basilica emphasized completeness, accuracy, and correctness; not
content, but the process. During a subsequent interview, the IO affirmed AR 15-6
investigation training given to all Majors and above between BG Basilica and the 256th
BCT SJA and his deputy. The IO told us he could not remember if anyone of them
explained or discussed chain of custody and proper collection of evidence. He recalled


18
     5 Ws: Who, What, When, Where, Why
IPO2008E001                                                                              35

all three individuals being present “[B]ut it was the JAG’s that were actually presenting
the training.”

        We also asked the IO whether his training prepared him to investigate the
shooting death of a person. He stated “[T]he training that we received dating back to our
home station and mobilization station included rules of engagement…which was the
guiding principle for all engagements that we utilized in Iraq.” He believed this was
reiterated during the AR 15-6 training using vignettes and reemphasizing the rules of
engagement.


       Discussion

        ROE Training. The SROE requires unit commanders ensure unit personnel
understand and are trained on when and how to use force in self-defense. The SROE are
used as the fundamental guidance for training soldiers. Although the SROE did not
provide specific guidance on training requirements, e.g., the application and scope of
ROE training required, frequency, and length, the SROE provides definitions and
conditions regarding ROE and RUF, while commanders exercise discretion in training
unit personnel. The Commander, 256th BCT developed policy requiring ROE training to
the lowest level prior to deployment, upon reception into theater, and retraining as
necessary for units conducting missions in and around populated areas.

        We interviewed BG Basilica, the 256th BCT SJA, the soldiers manning the OP,
and soldiers and unit leaders assigned to mounted posts on August 28, 2005. Those
interviews as well as documents we reviewed indicated training was conducted as
mandated by the SROE and 256th BCT TSOP.

        AR 15-6 Investigation Training. AR 15-6, Paragraph 2-1c. specifies
“[I]nvestigating officers…shall be those persons who, in the opinion of the appointing
authority, are best qualified for the duty by reason of their education, training,
experience, length of service and temperament.” This reference to training makes it
incumbent on appointing authorities to ensure investigating officers are properly trained.

        We believe BG Basilica took steps to ensure the officers he appointed as AR 15-6
investigating officers were trained. With the assistance of his SJA, he personally trained
his eligible investigating officers how to conduct an AR 15-6 investigation. The IO
appointed to the instant case testified he attended the AR 15-6 investigation training. The
IO described not only the training content, but BG Basilica’s emphasis on completeness,
accuracy, and the investigation process so they would understand the standard and how to
go about conducting an investigation.

        We reviewed the training slides BG Basilica used to deliver the AR 15-6
investigation training and considered the topic areas to be comprehensive. The training
required all witnesses to be interviewed and statements to be detailed, to the point, they
addressed who, what, where, when, and why. While the training slides stated only
“examine all evidence,” BG Basilica explained evidence handling was covered
IPO2008E001                                                                                36

extensively. He testified the nature of their mission, which required soldiers to detain
suspected insurgents, necessitated all soldiers, to include investigating officers,
understand how to do “police work” and learn “crime scene type techniques.”

       The unit’s efforts to train AR 15-6 IOs met requirements.
IPO2008E001                                                                               37


Appendix B. Chronology

August 28, 2005


   o	 (0600-0700) Soldiers assigned to C Company, 1st Battalion, 156th Armor, 256th
      BCT, Louisiana Army National Guard begin their tour of duty (TOD) in the
      Ghazalia neighborhood, or more commonly referred to as Checkpoint (CP) 50A.
      The soldiers comprised crews of two BFV’s responsible for patrolling Main
      Supply Route (MSR) Vernon (north-south) and crews of two M1A1 Abrams
      tanks responsible for patrolling MSR Sword (east-west), and a team of four
      dismounted soldiers at the OP atop the Al Adil Mall overlooking MSR Vernon
      and the Ghazalia neighborhood.

   o	 (0830) While patrolling MSR Vernon, a local national civilian vehicle crossed
      over from the southbound lane to the northbound lane of MSR Vernon, heading
      directly towards a BFV traveling north on MSR Vernon. The BFV crew engaged
      the vehicle with small arms fire to stop it, injuring the driver in the process. After
      determining the civilian vehicle was not hostile but had brake failure, both BFV’s
      escorted the injured local national civilian to the Troop Medical Clinic (TMC) on
      Camp Stryker. The two tanks assumed patrol responsibilities for MSR Vernon.

   o	 (0930) The initial time the Reuters Baghdad bureau cameraman claimed he
      received notification from the Reuters Baghdad bureau senior television (TV)
      producer to obtain footage of an insurgent ambush of IPS in the vicinity of
      Ghazalia on MSR Vernon.

   o	 (1030-1100) The two tanks parked in the Al Adil Mall parking lot, adjacent to
      MSR Vernon, to perform maintenance on one of the tanks that was leaking oil.

   o	 (1100-1130) Four soldiers assigned to the OP atop the Al Adil mall who were
      providing visual security of CP 50A, observed an IPS convoy passing their
      location, traveling northbound on MSR Vernon. They heard gunfire
      approximately 300-500 meters north of their location from a wooded area to the
      east of MSR Vernon directed at the IPS convoy. They notified the tanks, who
      also heard the initial gunfire, and the OP Soldiers began to provide suppressive
      fire in support of the IPS convoy.

   o	 (1100) Reuters Baghdad bureau reported receiving information from a source that
      an incident had occurred involving an ambush on IPS in the Ghazalia
      neighborhood. The Reuters Baghdad bureau senior TV producer received the call
      and directed the cameraman respond to the incident scene to obtain film footage
      with the driver.
IPO2008E001                                                                              38

     o	 (1110) According to Reuters, the driver and the cameraman departed the Reuters
        Baghdad bureau and proceeded to the ambush location. While en route to the
        incident they made one stop at a local garage where they dropped off a co-worker.

     o	 (1120) According to the 256th BCT Tactical Operations Center (TOC) log, they
        received notification of a reported ambush on an IPS convoy near CP 50A.

     o	 (1122) According to the TOC logs, U.S. soldiers manning the OP atop Al Adil
        Mall witnessed three IPS vehicles under ambush by insurgents using rifles and
        machine guns north of the mall. On MSR Vernon, IPS returned fire and secured
        the ambush site. The OP team leader called for assistance from the two tanks
        patrolling MSR Vernon.

     o	 (1124) The OP team leader determined the direction of enemy fire came from
        east of the ambush site. He directed his three-man team to provide suppressive
        fire on a tree line east of the ambush site. He also waited for the tanks to
        maneuver in support of the ambushed IPS convoy.

     o	 (1126) The two tanks responded to the enemy ambush site from the south side of
        the Al Adil Mall traveling north on MSR Vernon. The tank commander reported
        five IPS personnel wounded and two killed. The tank commander radioed the
        TOC requesting assistance from the two BFVs still at the TMC.

     o	 (1130) The two BFVs departed Camp Liberty in response to the call for
        assistance.

     o	 (1130) The Reuters Baghdad bureau senior TV producer received information by
        telephone that the cameraman and the driver had been injured by U.S. forces and
        immediately dispatched another team to the scene to assist in any way possible.

     o	 (1139) A secondary ambush is reported.

     o	 (1140) The OP team observed a second enemy attack (involving mortar fire) on
        IPS who were initially attacked and the two tanks that responded to assist.

     o	 (1145) The OP team observed a white vehicle, later identified as belonging to
        Reuters Baghdad bureau, pointing from the side passenger window what they
        suspected to be an RPG at a US tank that straddled MSR Vernon. The OP team
        engaged the Reuters vehicle, shouting warnings, and firing both warning and
        disabling shots. As a result the OP team shot and killed Mr. Waleed Khaled, a
        Reuters driver and soundman, 19 and injured a Reuters cameraman 20 while they
        were filming the ongoing insurgent ambush of IPS and U.S. forces personnel in
        Baghdad, Iraq, from their unmarked indigenous vehicle.


19
     Hereinafter referred to as “the driver.”
20
     Hereinafter referred to as “the cameraman.”
IPO2008E001                                                                                           39

      o	 (1145) While the OP team engaged the Reuters vehicle, two tanks searched the
         neighborhood west of the ambush site for another white civilian vehicle that was
         identified by local nationals as belonging to the insurgents who ambushed the IPS
         and the tanks.

      o	 (1155) The two BFVs arrived on-scene and assisted the two tanks in searching
         the neighborhood for the second white vehicle. The vehicle was located and upon
         searching, various bomb-making materials were discovered. During their search,
         the OP team leader notified the BFV commander that his team had engaged a
         white vehicle and it had been disabled. The BFV commander instructed the OP
         team leader to keep “eyes on” the vehicle until his BFV could respond.

      o	 (1230) The tanks and BFV’s responded to the disabled Reuters vehicle. They
         established a security cordon of CP50A, covering both MSR Vernon and MSR
         Sword.

      o	 On August 28, 2005, Brigadier General (BG) John P. Basilica Jr., 21 Commander,
         256th BCT appointed an Army major assigned to Headquarters and Headquarters
         Company (HHC), 256th BCT, to investigate the incident in accordance with AR
         15-6.

      o	 (1245) The IO arrived at the scene. He verbally interviewed the OP team
         involved in the shooting, the tank and BFV commanders and the officer in charge
         for the day. The IO decided to detain the cameraman based on inconsistencies
         regarding his presence at the scene. The IO departed the scene instructing all
         soldiers involved to provide sworn statements upon completion of their TOD.

      o	 (1300-1800) The soldiers involved in the incident to include the tanks and BFVs
         continued the area security cordon awaiting arrival of personnel to remove the
         driver and the Reuters vehicle. The OP team returned to the OP atop Al Adil
         Mall pending shift change. The shift change was delayed due to a shortage of
         vehicles for the relief shift.

      o	 (1700) The cameraman was placed in the back of a BFV, and later taken to the
         256th BCT interrogation facility (BIF).

      o	 (1800-1830) The 256th BCT soldiers are relieved of their TOD and returned to
         the TOC.

      o	 (1830-2000) Eight soldiers to include the OP team, Officer in Charge, tank and
         BFV commanders, et al, provided sworn statements in support of the AR 15-6
         investigation regarding their knowledge of the incident.



21	
      BG Basilica has since been promoted. However, in this report we will identify Service members using
      the rank and position they held at the time of events at issue unless otherwise noted.
IPO2008E001                                                                                40


August 29, 2005

   o	 Brigade Interrogation Facility (BIF) personnel interrogate the cameraman. He
      provides a statement denying he filmed the IPS ambush. He claimed the driver
      shot the video footage U.S. soldier seized when they detained him. The
      cameraman claimed he was sent to the ambush site at 9:30 AM.

   o	 Reuters, through the 3rd Infantry Division (3 ID) Staff Judge Advocate (SJA) and
      Public Affairs Office (PAO) demanded the cameraman’s release.

   o	 Iraqi police investigate the engagement of the Reuters vehicle by U.S. forces and
      published a report. An autopsy of the driver was performed by Iraqi medical
      authorities.

August 30, 2005

   o	 BIF personnel interrogate the cameraman a second time. He denies prior
      knowledge of the IPS attack reiterating his initial statement that he did not film
      the ambush, while maintaining he was sent to the incident at 9:30 AM.

   o	 Reuters Baghdad bureau and 3 ID personnel agree to meet on August 31, at Camp
      Liberty, to view the video footage and facilitate the interview of the senior TV
      producer.

August 31, 2005

   o	 Reuters Baghdad bureau personnel meet at the 3 ID PAO, Camp Liberty. The
      meeting is attended by: 3ID SJA, 3 ID PAO, 3 ID effects officer, 256th BCT SJA,
      the IO, and Reuters Baghdad bureau personnel including the chief, senior TV
      producer, security advisor, and the senior producer for Jordan, Iraq, Syria and
      Lebanon. The group viewed the video footage taken by the cameraman. The
      256th BCT SJA instructed the IO to maintain control of the videotape.

   o	 BIF personnel interviewed Reuters Baghdad bureau senior TV producer.

   o	 Based on the viewing of the videotape and information provided by the senior TV
      producer, the 3ID SJA determined there was no cause to further detain the
      cameraman and he was released to the bureau chief.

   o	 Reuters Baghdad bureau chief and Reuters senior producer for Jordan, Iraq, Syria,
      and Lebanon interviewed the cameraman regarding the incident and his detention.
      They recorded the interview (portions of the cameraman’s testimony are later
      provided to Department of Defense Inspector General (DoD IG)).

   o The IO completes the AR 15-6 investigation submitting it to the 256th BCT SJA.
     The IO concluded that the four soldiers acted in accordance with the ROE for the
IPO2008E001                                                                              41

       Iraq Theater of operations when they fired to disable the vehicle, killing the driver
       and wounding the cameraman.

   o	 The 256th BCT Deputy SJA conducted a legal review of the 15-6 investigation
      finding it legally sufficient. On September 3, 2005, BG Basilica approved the
      findings and recommendations. Major General (MG) William G. Webster Jr.,
      Commander, 3 ID later reviewed the report and approved its findings and
      recommendations.

September 2, 2005

   o	 Reuters retains TRAG to investigate the facts and circumstances surrounding the
      shootings and specifically to try and determine who was responsible for the death
      of the driver and wounding of the cameraman.

September 3, 2005

   o	 The AR 15-6 IO departed Iraq, returning to Louisiana to assist his unit in
      Hurricane Katrina relief efforts. He inadvertently left Iraq with the videotape.

September – October 2005

   o	 The 3 ID SJA initiated efforts to obtain and subsequently locate the videotape.
      Because of duty commitments related to Hurricane Katrina relief efforts, the IO
      directed his spouse to mail the videotape to 3 ID SJA Admin Law, which she did
      on September 13, 2005. The videotape was never received in Iraq.

March 22, 2006

   o	 TRAG issued its report and concluded, “the use of force was not justified under
      the rules of engagement,” and, “the degree of force was not proportionate to the
      threat as there was no threat prior to the engagement,” and “the engagement was
      therefore in breach of U.S. Rules of Engagement, and in our opinion, on the
      current evidence was prima facie unlawful.”

April 7, 2006

   o	 Ms. Jamie S. Gorelick, Attorney at Law, Wilmer Cutler Pickering Hale and Dorr,
      LLP, 2445 M Street, NW, Washington, DC 20037-1487, representing Reuters
      wrote Mr. Thomas F. Gimble, Acting Inspector General, Department of Defense
      and requested an independent examination of the incident to “ensure
      accountability and serve the public interest,” as well as “prevent another
      occurrence of a Reuters journalist being gunned down by U.S. forces in Iraq in
      violation of the standing U.S. rules of engagement and applicable international
      law.” Ms. Gorelick asserted inconsistencies between testimonial and other
      evidence, failures to consider the surviving cameraman’s account of what
IPO2008E001                                                                             42

     happened, to analyze ballistic evidence, and to address and account for critical
     evidence, as well as independently verify the soldiers’ testimony.
IPO2008E001                                                                                          43



Appendix C. Standards Related to the Rules of
            Engagement, Reuters Safety
            Procedures, and AR 15-6
            Investigations

          1. Rules of Engagement Standards

       Enclosure A, Chairman Joint Chiefs of Staff Instruction (CJCSI) 3121.01B,
“Standing Rules of Engagement /Standing Rules for the Use of Force for U.S.
Forces,” dated June 13, 2005 22
        The Standing Rules of Engagement (SROE) provide implementation guidance on
the application of force for mission accomplishment and self-defense. The SROE
establish fundamental policies and procedures governing the actions taken by U.S.
commanders during military operations and contingencies and routine Military
Department functions.

          The SROE provide the following principle as the Inherent Right of Self-Defense:

                 Unit commanders always retain the inherent right and
                 obligation to exercise unit self-defense in response to a
                 hostile act or demonstrated hostile intent. Unless otherwise
                 directed by a unit commander as detailed below, military
                 members may exercise individual self-defense in response
                 to a hostile act or demonstrated hostile intent.
        The SROE also provide definitions for “Hostile Act” and “Hostile Intent.” The
     th
256 BCT Tactical Standing Operating Procedures (TSOP), Card 660 – Rules Of
Engagement incorporates these definitions. Additionally, the SROE define “Imminent
Use of Force,” stating, “The determination of whether the use of force against U.S. forces
is imminent will be based on an assessment of all facts and circumstances known to U.S.
forces at the time and may be made at any level.”

       Regarding the “Principles of Self-Defense” the SROE states, “All necessary
means available and all appropriate actions may be used in self-defense.” The following
guidelines apply:

                 (1) De-escalation. When time and circumstances permit,
                 the forces committing hostile acts or demonstrating hostile


22
     Although the CJCSI is classified “SECRET,” Enclosure A is unclassified and other information taken
     from portions of the CJCSI is “UNCLASSIFIED
IPO2008E001                                                                             44

               intent should be warned and given the opportunity to
               withdraw or cease threatening actions.
               (2) Necessity. Exists when a hostile act occurs or when a
               force demonstrates hostile intent. When such conditions
               exist, use of force in self-defense is authorized while the
               force continues to commit hostile acts or exhibit hostile
               intent.
               (3) Proportionality. The use of force in self-defense should
               be sufficient to respond decisively to hostile acts or
               demonstrations of hostile intent. Such use of force may
               exceed the means and intensity of the hostile act or hostile
               intent, but the nature, duration and scope of force used
               should not exceed what is required.
        Self-defense includes “the authority to pursue and engage forces that have
committed a hostile act or demonstrated hostile intent, if those forces continue to commit
hostile acts or demonstrate hostile intent.”

      Appendix 5 to Annex C to “Multi National Forces – Iraq Framework
Operation Order, Rules of Engagement for U.S. Forces,” dated March 22, 2005
        The Multi National Forces – Iraq (MNF-I) ROE discuss the use of warning and
disabling shots not discussed in the SROE. The MNF-I ROE states

               Warning shots are normally aimed shots or bursts into a
               safe backstop. They may be used as a signal to an element
               that does not yet qualify as hostile (a positively identified
               hostile force, those who commit a hostile act, or those who
               display hostile intent), but that is potentially hostile.
       It defines warning shots as,

               The firing of shots or delivery of ordnance by personnel, or
               weapon systems in the vicinity of a person, vessel, or
               aircraft as a signal to immediately cease activity. Warning
               shots are one measure to convince a potentially hostile
               force to withdraw or cease its threatening actions.
       It defines “disabling shots” as an alternative to warning shots and gives the
following explanation:

               If you have positively identified that vehicle occupants are
               hostile, you may fire a disabling shot instead of a warning
               shot. A disabling shot or burst is fired with the intent of
               stopping the vehicle. Normally, disabling shots with motor
               vehicles are into tires or the engine compartment.
IPO2008E001                                                                               45

The MNF-I ROE states, “Shots or bursts fired into a vehicle to disable it or reduce its
mobility are not warning shots. They are instead disabling shots.” It provides the
following examples of using warning shots:

               If a vehicle approaches your checkpoint or convoy in a
               manner that appears threatening, but that is not yet hostile,
               then you may fire a warning shot into a berm, the shoulder
               of the road, or other safe direction. If the vehicle does not
               respond to your first warning shot and you believe that their
               failure to respond and continued approach indicates they
               are displaying hostile intent, you may fire a warning shot or
               burst into the engine block of the car from the front of the
               vehicle, that has a likelihood that you will cause death or
               grievous bodily harm to the occupants of the vehicle.
               Again, aiming a warning shot into a vehicle may only be
               done if you positively identify that the occupants of the
               vehicle are a hostile force, are committing a hostile act, or
               are displaying hostile intent. Each situation is different and
               requires the commander or person at the scene to use
               judgment in assessing the proper threat and method to fire a
               warning shot.
        The MNF-I ROE discusses “Responding in Self-Defense,” and explains the
concept of positive identification of a hostile force committing a hostile act or displaying
hostile intent stating,

               Self defense engagements occur when commanders or
               members of a unit can positively identify that they or one
               of their elements encounters a hostile force, an element
               committing a hostile act or a display of hostile intent….
               (emphasis added)

       Annex E (Rules of Engagement) to 256 Separate Brigade, undated:
        This operation order (OPORD) implements the ROE responsibilities imposed by
the Commanding General, Combined Joint Task Force 7 (CJTF-7). The annex indicates
that the CJTF-7 ROE were coordinated with the Coalition Provisional Authority and the
Secretary of Defense. This annex begins with a general statement regarding the inherent
right of self defense based on the SROE. Additionally, it sets forth how forces and
individuals may be established as enemy either by their status (through declaration as a
hostile force by the President or the Secretary of Defense), or by their conduct (through
their commission of a “HOSTILE ACT” or their demonstration of “HOSTILE
INTENT,”) against CJTF-7 forces, friendly forces, or persons or property under the
protection of CJTF-7 forces. (Emphasis in original) Annex E also provides the definitions
of hostile act and hostile intent, which are compatible with the SROE. Additionally,
Annex E defines the circumstances when deadly force may be used and escalation of
force steps. The criteria for use of deadly force include, “a person who aims his weapon
IPO2008E001                                                                                 46

at you, your unit, or other designated friendly forces; and, a person about to use any other
force against you, your unit, or other designated friendly forces, and you reasonably
believe that force to be deadly.” These criteria match the criteria in the 256th BCT TSOP,
Card 660 – Rules of Engagement, detailed below.

      256th BCT Tactical Standard Operating Procedures, Card 660 – Rules of
Engagement (Not Marked as Classified), undated:
       The 256th BCT TSOP states,

               these rules and any supplemental rules do not limit a
               commander’s inherent authority and obligation to use all
               necessary means available and to take all appropriate action
               in self defense of the commander’s unit and other U.S. and
               designated friendly forces in the vicinity….
        Further, “the rules for the use of force are currently in effect and they shall apply
until changed or rescinded by the 256th BCT Commander.”

       The TSOP provides the following definitions regarding enemy forces:

               Conduct. Forces and individuals may be established as
               enemy either by their status…or by their conduct, through
               their commission of a HOSTILE ACT or their
               demonstration of HOSTILE INTENT against 256th BCT
               forces, friendly forces, or persons or property under the
               protection of 256th BCT forces.
               Hostile Intent. Hostile intent is a threat of imminent use of
               force against 256th BCT or friendly forces, or persons or
               property under the protection of MNC-I forces that is likely
               to cause serious permanent injury or death or significant
               property damage. Hostile intent may be judged by the
               threatening force or individual’s capability and
               preparedness to inflict damage, or by evidence, particularly
               intelligence, that clearly indicates that a surprise strike is
               imminent.

        In discussing the “use of force” and “self defense,” the TSOP states that 256th
BCT forces have the right to use force in self-defense, either as individuals or as a unit. It
further explains “the right to self-defense includes the right of the individual to use force
to protect himself and go to the defense of others who are in danger of serious injury or
death.”

        The TSOP requires 256th BCT forces “use only the minimum force required to
achieve the immediate objective….” It explains, “it may be necessary to use force
against civilians and other noncombatants in self-defense in response to a hostile act or
IPO2008E001                                                                              47

hostile intent, to prevent interference with the military mission.” Further, “When time
and circumstances permit, 256th BCT forces will challenge and warn prior to using force,
and if force is necessary, use an escalating scale of force.” It provides the following
shout, shove, show, and shoot escalation of force methodology:

       SHOUT: verbal warnings to HALT or move as directed by 256th BCT forces.
       SHOVE: physically touch another person to restrain, block access, or detain.
       SHOW: outwardly hold your weapon and demonstrate intent to use it.
       SHOOT: only to remove the threat of death/serious bodily injury or to protect
       designated property.”

       2. Rules of Engagement Training Standards

       Chairman Joint Chiefs of Staff Instruction (CJCSI) 3121.01B, “Standing
Rules of Engagement/Standing Rules for the Use of Force for U.S. Forces,” dated 13
June 2005
        Appendix A reflects unclassified guidance regarding ROE training to U.S. Forces
stating, “Unit commanders at all levels shall ensure that individuals within their
respective units understand and are trained on when and how to use force in self-
defense.” The SROE are to be used as the “fundamental guidance for training and
directing of forces.”

       256th BCT TSOP, CARD 660 – RULES OF ENGAGEMENT, undated
       The paragraph entitled “ROE compliance and training” states, “All 256th BCT
subordinate units will…Conduct ROE training to the lowest level prior to deployment
and upon reception into theater. Retrain ROE as necessary focusing especially on units
conducting missions in and around populated areas.”

       256th BCT TSOP, Card 663 – RAMP/ROE Training, undated
        Paragraph 2 of the TSOP mandates unit commanders use RAMP as a training
method for the application of ROE. The acrostic “RAMP” represents Return fire with
aimed fire; Anticipate attack; Measure the amount of force you use; and Protect with
deadly force U.S. lives and property designated by the commander. RAMP is used to
assist soldiers in knowing the principles in applying the ROE. (emphasis added)

       Paragraph 3.b. requires soldiers be trained to:

       (1) Defend themselves and their unit with initiative; (2) Apply all levels of force
       only when necessary; (3) Apply an amount of force proportionate to each threat
       encountered; and (4) Transition appropriately to a combat situation when ordered
       to do so.
IPO2008E001                                                                                           48


         3. Reuters Journalist Safety Standards

         Reuters Journalist Safety Procedures, undated 23
        Journalist safety procedures published by Reuters establishes rules for covering
conflicts and gives details on safety equipment. The procedures outline how Reuters and
other international news organizations are working together to reduce risks. The
following rules are applicable to this incident:

        Paragraph 2 states, “Your vehicle should be identified as a press car unless that
would increase rather than decrease the danger.” Additionally, “If caught in a situation
where troops are acting in a threatening manner, cocking their weapons and so on, try to
stay relaxed. Act friendly and smile. Aggressive or nervous behavior on your part is
likely to be counter-productive.”

         Paragraph 3, Safety Equipment, Staff Safety, states,

                 It is the clear responsibility of Bureau Chiefs to ensure that
                 where staff are on duty in hazardous environments they
                 should be properly equipped to deal with foreseeable
                 dangers….Furthermore, where staff are issued with safety
                 equipment for a particular assignment, it is obligatory that
                 this equipment is worn. Exceptions in special
                 circumstances, e.g. if staff on ground believe such
                 equipment could attract attention and add to the dangers,
                 can be made only with the express approval of the Bureau
                 Chief. For the purposes of this policy ‘staff’ covers any
                 person working directly on behalf of the company.

        Paragraph 3, Safety Equipment, Responsibilities, states, “Bureau Chiefs must
ensure that their staff are provided with the necessary equipment when working in a
potentially dangerous environment and issue clear instructions that such equipment must
be worn, used or carried as appropriate.”

         Reuters journalist safety procedures encompass “Global Safety Guidelines” which
state,

                 The preservation of human life and safety is paramount.
                 Staff and freelancers should be made aware that
                 unwarranted risks in pursuit of a story are unacceptable and
                 must be strongly discouraged. Assignments to war zones
                 or hostile environments must be voluntary and should only


23
     March 22, 2006, Investigation into death of Waleed Khaled on 28 August 2005, The Risk Advisory
     Group (TRAG), Annex 14, Undated, Reuters Journalist Safety procedures
IPO2008E001                                                                                           49

                 involve experienced news gatherers and those under their
                 direct supervision.

         These guidelines specify, “Employers must provide efficient safety equipment to
all staff and freelances assigned to hazardous locations, including personal issue kevlar
vest/jackets, protective headgear and properly protected vehicles if necessary.” 24

      General Driver Training Advice, Guidance for Reuter Drivers and Camera
Operators, undated 25
        The Reuters Baghdad Bureau safety advisors published the following guidelines
for their drivers and camera operators in Iraq:

         All drivers and staff are advised on the following: Approaching Incidents:

                 1. Approach with care.
                 2. If the incident has been cordoned off stay at least 100
                 meters from the cordon….
                 4. The Soldiers and Police on the ground will be Nervous.
                 5. Do not stick cameras out of window.
                 6. . . . .
                 7. . . . .
                 8. If one of you feel your life is at risk return to Bureau.
                 Carefully extract from the area do not speed unless you
                 have too. If you are in immediate danger, try to carry out a
                 U-turn and drive off. If your vehicle comes under attack or
                 an attack happens in the vicinity of your vehicle reverse or
                 U-turn away from the threat keeping the engine block
                 between you and the threat, drive into cover or get distance
                 between you and the threat. Passengers get into foot well
                 or as low as possible the engine will provide some cover
                 from Small Arms Fire.

       Reuters Bureau Baghdad Security and Safety Instructions, Instruction 9,
Vehicle Movement in Baghdad, undated 26
       Additional guidance published by Reuters Baghdad Bureau safety advisors states,
“Camera men try to avoid using the camera from with in (sic) the vehicle it looks
suspicious.”




24
     March 22, 2006, Investigation into death of Waleed Khaled on 28 August 2005, The Risk Advisory
     Group (TRAG), Annex 14, Undated, Reuters Journalist Safety procedures
25
     Received from Reuters via their attorneys in DoD IG Data Call
26
     Received from Reuters via their attorneys in DoD IG data call
IPO2008E001                                                                                50


       4. Army Regulation 15-6 Investigation Standards

       AR 15-6 “Procedures for Investigating Officers and Boards of Officers,”
dated September 30, 1996
        The regulation establishes Army procedures for administrative investigations and
boards of officers not specifically authorized by another directive. AR 15-6
investigations and boards ascertain facts, make recommendations, and report them.

        With regard to specific responsibilities, Paragraph 1-5, “Functions of
investigations and boards” establishes the duty of the investigating officer or board to

               Ascertain and consider the evidence on all sides of each
               issue, thoroughly and impartially, and to make findings and
               recommendations that are warranted by the facts and that
               comply with the instructions of the appointing authority.

        Subparagraph 3-7. c. (2), “Taking Testimony or Statements,” states the IO
“should assist the witness in preparing a written statement to avoid inclusion of irrelevant
material or the omission of important facts and circumstances. However, care must be
taken to ensure that the statement is phrased in the words of the witness.”

        Paragraph 3-7. “Witnesses” provides specific guidance to preserve
or protect the integrity of witness testimony. Subparagraph 3-7b
“Attendance as spectators” states witnesses should not be present at the
investigation when others testify, and at subparagraph 3-7d.”Discussion of
evidence” it empowers investigating officers to direct or request witnesses
not discuss their statements or testimony with other witnesses.

       Paragraph 4-2, “Procedure” states,

               An informal investigation or board may use whatever
               method it finds most efficient and effective for acquiring
               information…Although witnesses may be called to present
               formal testimony, information also may be obtained by
               personal interview, correspondence, telephone inquiry, or
               other informal means.

        Paragraph 3-15, “Exhibits,” details the handling of evidence and its inclusion in
the investigating officer’s written report. With regard to physical objects, subparagraph
3-15b, “Real Evidence,” highlights the importance of including clear and accurate written
descriptions or depictions (such as photographs) of physical evidence in the report. The
subparagraph further stresses, “the real evidence itself should be preserved, including
chain of custody where appropriate, for use if further proceedings are necessary.” The
exhibit in the report should tell where the real evidence can be found, and after final
IPO2008E001                                                                            51

action has been taken in the case, the evidence should be disposed of as provided in
Army regulation.

       5. Army Regulation 15-6 Investigation Training Standards

       AR 15-6 “Procedures for Investigating Officers and Boards of Officers,”
dated September 30, 1996
        The regulation establishes Army procedures for administrative investigations and
boards of officers not specifically authorized by another directive. AR 15-6
investigations and boards ascertain facts, make recommendations and report them.

       With regard to qualifications, Subparagraph 2-1.c, “Who may be appointed,”
requires investigating officers and board members,

               Shall be those persons who, in the opinion of the
               appointing authority, are best qualified for the duty by
               reason of their education, training, experience, length of
               service and temperament (emphasis added)
IPO2008E001   52
IPO2008E001                                     53


Appendix D. Overhead Image of Incident Site 

IPO2008E001   54
IPO2008E001                             55


Appendix E. Photograph of Cameraman’s
            Equipment
IPO2008E001   56
IPO2008E001                                 57


Appendix F. Washington Post and Other RPG
            Pictures
IPO2008E001   58
IPO2008E001   59
IPO2008E001   60
IPO2008E001                                                               61


Appendix G. Rules of Engagement Card 661 

                         256 BCT RULES OF
                        ENGAGEMENT CARD
              1. On order, enemy military and paramilitary forces
              are declared hostile and may be attacked subject to
              the following instructions:

                a. Positive Identification (PID) is required prior to
              engagement. PID is a reasonable certainty that the
              proposed target is a legitimate military target. If no
              PID, contact your next higher commander for
              decision.

                 b. Do not engage anyone who has surrendered or
              is out of battle due to sickness or wounds.

                 c. Do not target or strike any of the following except
              in self-defense to protect yourself, your unit, friendly
              forces, and designated persons or property under
              your control
                    · Civilians, or
                    · Hospitals, mosques, churches, shrines,
                      schools, museums, national monuments, and
                      any other historical and cultural sites.

                d. Do not fire into civilian populated areas or
              buildings unless the enemy is using them for military
              purposes or if necessary for your self-defense.
              Minimize collateral damage.

                 e. Do not target enemy Infrastructure (public works,
              commercial communication facilities, dams), Lines of
              Communication (roads, highways, tunnels, bridges,
              railways) and Economic Objects (commercial storage
              facilities, pipelines) unless necessary for self-defense
              or if ordered by your commander. If you must fire on
              these objects to engage a hostile force, disable and
              disrupt but avoid destruction of these objects, if
              possible.



                         256 BCT RULES OF
                        ENGAGEMENT CARD
              2. The use of force, including deadly force, is
              authorized to protect the following:
                - Yourself, your unit, and friendly forces
                - Enemy Prisoners of War
                - Civilians from crimes that are likely to cause death
                  or serious bodily harm, such as murder or rape
                - Designated civilians and/or property, such as
              personnel of the Red
                - Cross/Crescent, UN, and US/UN supported
              organizations.

              3. Treat all civilians and their property with
              respect and dignity. Do not seize civilian
              property, including vehicles, unless you have the
              permission of a company level commander and
              you give a receipt to the property’s owner.

              4. Detain civilians if they interfere with mission
IPO2008E001   62
IPO2008E001                       63


Appendix H. Management Comments
IPO2008E001   64
IPO2008E001                                65



United States Central Command Comments 

IPO2008E001   66
IPO2008E001                                       67



Department of Army Inspector General Comments 

IPO2008E001   68
IPO2008E001                           69



Louisiana National Guard Comments 

IPO2008E001   70
IPO2008E001                                                                    71


Appendix I. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Personnel and Readiness
General Counsel, Department of Defense

Department of the Army
Secretary of the Army 

Assistant Secretary of the Army (Financial Management and Comptroller) 

Inspector General, Department of the Army* 

Commander, US Army Criminal Investigation Command 

Chief, National Guard Bureau* 

Adjutant General, Louisiana National Guard 

Commander, 256th Brigade Combat Team* 


Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




*Recipient of draft report
IPO2008E001   72
IPO2008E001                                 



Team Members

The Department of Defense Office of the Assistant Inspector General for Investigative
Policy and Oversight prepared this report. Personnel of the Department of Defense
Office of Inspector General who contributed to the report are listed below.

Scott Russell
Melvina Coakley
Brian Grossman
Ray Arp
Nakita Pounds
Celia Story
John Gibson
Lt. Col. Robert Garza
Steven Wakefield
Jason Burr
Terry Hammer
